r-

APPENDIX A

20-1958

Lassissi Afolabi
#28877-050
Northlake Cl
P.O. Box 1500
Baldwin, MI 49304

CLD-298

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-1958
LASSISSIAFOLABI,
Appellant
v.
WARDEN FORT DIX FCI
On Appeal from the United States District Court
for the District of New Jersey
(D.C. Civil Action No. l-19-cv-08802)
District Judge: Honorable Noel L. Hillman

Submitted for Possible Dismissal Pursuant to 28 U.S.C. § 1915(e)(2)(B) or
Summary Action Pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6
September 3, 2020
Before: JORDAN, KRAUSE and MATEY, Circuit Judges
(Opinion filed: September 16, 2020)
ADTK TT/^Vk T*

ux ainav^Tn

PER CURIAM
Pro se appellant Lassissi Afolabi appeals the District Court’s dismissal of his
habeas petition filed pursuant to 28 U.S.C. § 2241. Because the appeal fails to present a

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not

substantial question, we will summarily affirm the District Court’s judgment. See 3d Cir.
L.A.R. 27.4; 3d Cir. I.O.P. 10.6.
Afolabi, a federal prisoner, is currently serving a 292 months’ sentence imposed
by the United States District Court for the District of New Jersey after pleading guilty to
conspiracy to commit forced labor, conspiracy to commit trafficking with respect to
forced labor, and conspiracy to commit document servitude in violation of 18 U.S.C.
§ 371; providing and obtaining forced labor, two counts of which involved aggravated
sexual abuse, in violation of 18 U.S.C. §§ 1589, 1590, & 1592; and transportation of a
minor with intent to engage in criminal sexual activity in violation of 18 U.S.C. §
2423(b). The charges stemmed from a human trafficking scheme he ran with his ex-wife,
their son, and others, through which they brought more than 20 West African girls, ages
10-19, from Togo and Ghana to the United States, and forced them to work in hair­
braiding salons for up to 14 hours a day, six or seven days a week.

We affirmed

Afolabi’s judgment of sentence on direct appeal. See United States v. Afolabi. 455 F.
App’x 184 (3d Cir. 2011).
In 2013, Afolabi filed a motion to vacate his sentence pursuant to 28 U.S.C.
§ 2255, in which he claimed that his counsel provided ineffective assistance for, inter
alia, failing to adequately investigate his defense, causing him to plead guilty to charges
despite his innocence. The District Court denied the § 2255 motion on the merits, and we
declined to issue a certificate of appealability. See C.A. No. 16-1983.

constitute binding precedent.

2

While he was in custody in Fort Dix, New Jersey, Afolabi filed the instant § 2241
petition challenging his conviction and sentence on various grounds, including that his
counsel’s erroneous advice caused him to plead guilty despite his innocence. The District
Court dismissed the petition for lack of jurisdiction, and this appeal ensued.
We have appellate jurisdiction pursuant to 28 U.S.C. § 1291. In reviewing the
District Court’s dismissal of the § 2241 petition, we exercise plenary review over its legal
conclusions and review its factual findings for clear error. See Cradle v. United States ex
rel. Miner. 290 F.3d 536, 538 (3d Cir. 2002) (per curiam).
Generally, the execution or carrying out of an initially valid confinement is the
purview of a § 2241 proceeding, as attacks on the validity of a conviction or sentence
must be asserted under § 2255. See Okereke v. United States. 307 F.3d 117, 120 (3d Cir.
2002). Afolabi may not pursue a collateral attack on his conviction and sentence by way
of § 2241 unless he can show that “the remedy by [§ 2255] motion is inadequate or
ineffective to test the legality of his detention.” 28 U.S.C. § 2255(e). Under this “safety
valve” provision, a prior unsuccessful § 2255 motion or the inability to meet the statute’s
stringent gatekeeping requirements does not render § 2255 inadequate or ineffective. See
In re Dorsainvil. 119 F.3d 245, 251 (3d Cir. 1997). Rather, the exception is narrow,
limited to extraordinary circumstances such as where the petitioner “had no earlier
opportunity” to present his claims and has been convicted for conduct which is no longer
deemed criminal. Id,

3

This is clearly not a situation in which Afolabi “had no earlier opportunity to
challenge his conviction.” Id Indeed, he challenged the validity of his guilty plea on
direct appeal and in § 2255 proceedings on the same, or substantively similar, bases.
Afolabi reasons that he should be allowed to seek relief under § 2241’s “savingfs] clause”
because he is actually innocent of the charges against him. Specifically, he maintains that
he “had no sex with S.X.” and “she was older than 16” at the time of the alleged offense.
As the District Court explained, Afolabi’s admissions at the plea hearing belie his claim
of innocence, and, in any event, his actual innocence claim does not come within the
scope of the savings clause. See Bruce v. Warden Lewisburg USP. 868 F.3d 170, 180
(3d Cir. 2017) (noting that access to § 2241 is limited to actual innocence claims based
“on the theory that [the defendant] is being detained for conduct that has subsequently
been rendered non-criminal by an intervening Supreme Court decision”) (internal
quotation marks omitted)). The thrust of Afolabi’s other innocence argument is that the
Government and the District Court are wrongly interpreting the statute under which he
was convicted, not that the Supreme Court has construed or interpreted it differently. Cf,
Dorsainvil. 119 F.3d at 247, 251 (holding that petitioner could resort to § 2241 to pursue
his claim where the Supreme Court’s, decision interpreting 18 U.S.C. § 924(c)(1)
rendered his conviction invalid). We also agree, for the reasons provided by the District
Court, that Afolabi may not pursue, in a § 2241 petition, his claim that his sentence is
unconstitutional because he was not convicted of a crime of violence. See also Gardner
v. Warden Lewisburg USP. 845 F.3d 99, 103 (3d Cir. 2017) (“unlike the change in
4

substantive law leading to the exception in Dorsainvil, issues that might arise regarding
sentencing did not make § 2255 inadequate or ineffective”).
For the foregoing reasons, the District Court correctly ruled that it lacked
jurisdiction to entertain the § 2241 petition.

Accordingly, because no “substantial

question” is presented as to the petition’s dismissal, we will summarily affirm the
judgment of the District Court. See 3d Cir. LAR 27.4; 3d Cir. I.O.P. 10.6. Appellant’s
motion for appointment of counsel is denied.

5

CLD-298
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-1958

LASSISSIAFOLABI,
Appellant
v.
WARDEN FORT DIX FCI

On Appeal from the United States District Court
for the District of New Jersey
(D.C. Civil Action No. l-19-cv-08802)
District Judge: Honorable Noel L. Hillman

Submitted for Possible Dismissal Pursuant to 28 U.S.C. § 1915(e)(2)(B) or
Summary Action Pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6
September 3, 2020
Before: JORDAN, KRAUSE and MATEY, Circuit Judges

JUDGMENT

This cause came to be considered on the record from the United States District
Court for the District of New Jersey and was submitted for possible dismissal pursuant to
28 U.S.C. § 1915(e)(2)(B) and for possible summary action pursuant to Third Circuit
LAR 27.4 and I.O.P. 10.6 on September 3, 2020. On consideration whereof, it is now
hereby

ORDERED and ADJUDGED by this Court that the judgment of the District
Court entered March 23, 2020, be and the same hereby is affirmed. All of the above in
accordance with the opinion of this Court.

ATTEST:
s/ Patricia S. Dodszuweit
Clerk
DATED: September 16, 2020

2

OFFICE OF THE CLERK

PATRICIA S.
DODSZUWEIT
CLERK

United States Court of Appeals

TELEPHONE

21400 UNITED STATES COURTHOUSE
601 MARKET STREET
PHILADELPHIA, PA 19106-1790

215-597-2995

Website: www.ca3.uscourts.gov
September 16, 2020

Lassissi Afolabi
Northlake Cl
P.O. Box 1500
Baldwin, MI 49304
Susan Millenky ,
Office of United States Attorney
970 Broad Street
Room 700
Newark, NJ 07102
J. Andrew Ruymann
Office of United States Attorney
970 Broad Street
Room 700
Newark, NJ 07102

RE: Lassissi Afolabi v. Warden Fort Dix FCI
Case Number: 20-1958
District Court Case Number: l-19-cv-08802
ENTRY OF JUDGMENT
Today, September 16,2020 the Court entered its judgment in the above-captioned matter
pursuant to Fed. R. App. P. 36.
If you wish to seek review of the Court's decision, you may file a petition for rehearing. The
procedures for filing a petition for rehearing are set forth in Fed. R. App. P. 35 and 40, 3rd Cir.
LAR 35 and 40, and summarized below.

Time for Filing:
14 days after entry ofjudgment.
45 days after entry ofjudgment in a civil case if the United States is a party.
Form Limits:
3900 words if produced by a computer, with a certificate of compliance pursuant to Fed. R. App.
P. 32(g).
15 pages if hand or type written.
Attachments:
A copy of the panel's opinion and judgment only.
Certificate of service.
Certificate of compliance if petition is produced by a computer.
No other attachments are permitted, without first obtaining leave from the Court.
Unless the petition specifies that the petition seeks only panel rehearing, the petition will be
construed as requesting both panel and en banc rehearing. Pursuant to Fed. R. App. P. 35(b)(3),
if separate petitions for panel rehearing and rehearing en banc are submitted, they will be treated
as a single document and will be subject to the form limits as set forth in Fed. R. App. P.
35(b)(2). If only panel rehearing is sought, the Court's rules do not provide for the subsequent
filing of a petition for rehearing en banc in the event that the petition seeking only panel
rehearing is denied.
A party who is entitled to costs pursuant to Fed.R.App.P. 39 must file an itemized and verified
bill of costs within 14 days from the entry ofjudgment. The bill of costs must be submitted on
the proper form which is available on the court's website.
A mandate will be issued at the appropriate time in accordance with the Fed. R. App. P. 41.
Please consult the Rules of the Supreme Court of the United States regarding the timing and
requirements for filing a petition for writ of certiorari.
Very truly yours,
s/ Patricia S, Dodszuweit
Clerk
By: James King
Case Manager
267-299-4958

T

APPENDIX B

CM/ECF LIVE - U.S. District Court for the District of New Jersey

https://njd-ecf.sso.dcn/cgi-bin/Dispatch.pl732082745040307

Other Orders/Judgments
1:19-CV-08802-NLH AFOLABI v.
ORTIZ
HABEAS,IFRPLO
U.S. District Court
District of New Jersey [LIVE]
Notice of Electronic Filing
The following transaction was entered on 3/23/2020 at 8:51 AM EDT and filed on 3/23/2020
Case Name:
AFOLABI v. ORTIZ
Case Number:
1:19-cv-08802-NLH
Filer:
Document Number: 11
Docket Text:
OPINION. Signed by Judge Noel L. Hillman on 3/23/2020. (tf, n.m.)
l:19-cv-08802-NLH Notice has been electronically mailed to:
JOHN ANDREW RUYMANN
SUSAN R MILLENKY

john.ruymann@usdoj.gov, usanj.ecfirentoncivil@usdoj .gov

susan.millenky@usdoj.gov, usanj.ecfcivildocketing@usdoj.gov

l:19-cv-08802-NLH Notice has been sent by regular U.S. Mail:
LASSISSI AFOLABI
28877-050
FORT DIX-FEDERAL CORRECTIONAL INSTITUTION
EAST: P.O. BOX 2000
FORT DIX, NJ 08640
The following document(s) are associated with this tranraction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID= 1046708974 [Date=3/23/2020] [FileNumber=135486410] [612aa5b7e62732183ac2643b26295bd7d84c42e9dffa3fe7df91 db52cbac 170076
12b32fd7a9649f3bf7d795d739e037b8914e24465beaf095fb71869b360382]]

ot 1

CM/ECF LIVE - U.S. District Court for the District of New Jersey

https://njd-ecf.sso.dcn/cgi-bin/Dispatch.pl743146239132879(

Orders on Motions
1:19-CV-08802-NLH AFOLABI v.
ORTIZ
HABEAS, I FP.PLO
U.S. District Court
District of New Jersey [LIVE]
Notice of Electronic Filing
The following transaction was entered on 3/23/2020 at 8:54 AM EDT and filed on 3/23/2020
Case Name:
AFOLABI v. ORTIZ
Case Number:
1:19-cv-08802-NLH
Filer:
WARNING: CASE CLOSED on 03/23/2020
Document Number: 12
Docket Text:
ORDER granting [8] Motion to Dismiss for Lack of Jurisdiction ***CIVIL CASE
TERMINATED. Signed by Judge Noel L. Hillman on 3/23/2020. (tf, n.m.)
l:19-cv-08802-NLH Notice has been electronically mailed to:
JOHN ANDREW RUYMANN
SUSAN R MILLENKY

john.ruymann@usdoj.gov, usanj.ecftrentoncivil@usdoj.gov

susan.millenky@usdoj .gov, usanj .ecfcivildocketing@usdoj.gov

l:19-cv-08802-NLH Notice has been sent by regular U.S. Mail:
LASSISSI AFOLABI
28877-050
FORT DIX-FEDERAL CORRECTIONAL INSTITUTION
EAST: P.O. BOX 2000
FORT DIX, NJ 08640
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID= 1046708974 [Date=3/23/2020] [FileNumber=l 35486570] [a4c8al a9bb82340692296b09c 1696e74fl f2c0a89fdd7fcdd746317918a2093720
C8fbbd5b95ce43098efecd7520eefd26b893fb2608c7ff7dablcd8e4061def]]

i of 1

im/?n?n

r-sa aw

CM/ECF LIVE - U.S. District Court for the District of New Jersey

https://njd-ecf.sso.dcn/cgi-bin/Dispatch.pl72689403744489

Other Orders/Judgments
1:19-CV-08802-NLH AFOLABI v.
ORTIZ CASE CLOSED on
03/23/2020
CLOSED,HABEAS,IFP,PLO
U.S. District Court
District of New Jersey [LIVE]
Notice of Electronic Filing
The following transaction was entered on 3/23/2020 at 1:50 PM EDT and filed on 3/23/2020
Case Name:
AFOLABI v. ORTIZ
Case Number:
1:19-CV-08802-NLH
Filer:
WARNING: CASE CLOSED on 03/23/2020
Document Number: 13
Docket Text:
ORDER TO SEAL: Clerk shall seal Docket Entry 1-2. Signed by Judge Noel L. Hillman on
3/23/2020. (tf, n.m.)
l:19-cv-08802-NLH Notice has been electronically mailed to:
JOHN ANDREW RUYMANN
SUSAN R MILLENKY

john.ruymann@usdoj.gov, usanj.ecfitrentoncivil@usdoj.gov

susan.millenky@usdoj.gov, usanj .ecfcivildoCketing@usdoj .gov

l:19-cv-08802-NLH Notice has been sent by regular U.S. Mail:
LASSISSI AFOLABI
28877-050
FORT DIX-FEDERAL CORRECTIONAL INSTITUTION
EAST: P.O. BOX 2000
FORT DIX, NJ 08640
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=l046708974 [Date-3/23/2020] [FileNumber=135511390] [70586356b6be659d2bbf8ddecblcecf2265be24da5e3267180840c6e81e778c79e
4148f969bf34639389e2aa9b44c4929826fe9d8a0f2883835ce22d23f8bl72]]

l of l

3/73/7020 1S0PT

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY

LASSISSI AFOLABI,
Petitioner,

Civ. No. 19-8802

(NLH)

ORDER TO SEAL

v.
DAVID E. ORTIZ,
Respondent.
APPEARANCES:
Lassissi Afolabi
28877-050
Fort Dix
Federal Correctional Institution
Inmate Mail/Parcels
East: P.O. Box 2000
Fort Dix, NJ 08640
Petitioner Pro se

John Andrew Ruymann, Chief, Civil Division
Susan R. Millenky, AUSA
Office of the U.S. Attorney
970 Broad St.
Suite 700
Newark, NJ 07102
Counsel for Respondent
HILLMAN, District Judge
WHEREAS, Petitioner Lassissi Afolabi submitted his
presentence report (PSR) as an exhibit to his petition for writ
of habeas corpus, see ECF No. 1-2;
WHEREAS, a PSR is a confidential court document not
intended for public filing, see Local Cr. R. 32.1, and in this

particular case the PSR contains confidential information about
victims of sexual abuse, including minors.

There are compelling

interests in keeping that information off the public docket,
THEREFORE, IT IS on this

23rd

day of March, 2020,

ORDERED that the Clerk shall seal Docket Entry 1-2; and it
is finally
ORDERED that the Clerk of the Court shall serve a copy of
this Order upon Petitioner by regular U.S. mail.

s/ Noel L. Hillman
NOEL L. HILLMAN, U.S.D.J.

At Camden, New Jersey

2

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
LASSISSI AFOLABI,
Petitioner,
v.

Civ. No. 19-8802 (NLH)
OPINION ’

DAVID E. ORTIZ,
Respondent.
APPEARANCES:
Lassissi Afolabi
28877-050
Fort Dix
Federal Correctional Institution
Inmate Mail/Parcels
East: P.O. Box 2000
Fort Dix, NJ 08640
Petitioner Pro se
John Andrew Ruymann, Chief, Civil Division
Susan R. Millenky, AUSA
Office of the U.S. Attorney970 Broad St.
Suite 700
Newark, NJ 07102
Counsel for Respondent
HILLMAN, District Judge
Petitioner Lassissi Afolabi, a prisoner presently confined
at FCI Fort Dix, New Jersey, filed this Petition for Writ of
Habeas Corpus under 28 U.S.C. § 2241 seeking to vacate his
guilty plea entered on August 26, 2009 before the Honorable Jose
L. Linares, D.N.J..

ECF No. 1; see also United States v.

Lassissi Afolabi, No. 07-cr-0785 (D.N.J. Aug. 26, 2009)
120) .

(ECF No.

He argues "he was premised [sic], adduced, and coerced to

plead guilty by his attorney in conjunction with the government,
thereby incarcerated in violation of the constitution and law of
the United States."

ECF No. 1 at 3.

Respondent United States

now moves to dismiss the petition for lack of jurisdiction.
No. 8.

Petitioner opposes the motion.

ECF

ECF No. 9.

The Motion is now ripe for disposition.

For the reasons

that follow, the Court will grant the motion to dismiss.
I.

BACKGROUND
"From October 2002 through September 2007, Afolabi

conspired with his wife, Akouavi Afolabi, and others to commit
forced labor of more than 20 girls, aged 10 to 19."

United

States v. Afolabi, 455 F. App'x 184, 185 (3d Cir. 2011) .

"They

recruited the girls from impoverished villages in Togo and Ghana
and brought them to the United States with fraudulently obtained
visas.

The girls were required to work in hair-braiding salons

for up to 14 hours per day, six or seven days a week, and to
relinquish all of their earnings.

They were beaten and

psychologically and sexually abused."

i(L

On August 26, 2009,

Petitioner pled guilty to three counts of a superseding
indictment charging him with "conspiracy to commit forced labor,
trafficking with respect to forced labor, and document
servitude, contrary to 18 U.S.C. §§ 1589, 1590, and 1592, in
2

f

V

violation of 18 U.S.C. § 371; in Count 13, with providing and
obtaining the forced labor of P.H. in violation of 18 U.S.C. §§
1589 and 2; and in Count 23, with traveling for the purpose of
engaging in illicit sexual conduct with S.X, in violation of 18
U.S.C. §§ 2423 (b) and 2."

Plea Agreement, Afolabi, No. 07-cr-

0785 (D.N.J. Aug. 26, 2009)

(ECF No. 122 at 1) .

Petitioner

received a 292-month term of imprisonment with a life term of
supervised release.

Amended Judgment, Afolabi, No. 07-cr-0785

(D.N.J. July 13, 2010)

(ECF No. 206).

Petitioner was also

required to register as a sex offender and pay $3,949,140.80 in
restitution.

id.

Petitioner filed a direct appeal arguing the United States
breached his plea agreement and the sentencing court improperlycalculated his offense level.

The Court of Appeals rejected

both of those arguments and affirmed Petitioner's conviction and
sentence.

Afolabi, 455 F. App'x 184.

Petitioner thereafter

filed a motion to correct, vacate, or set aside his federal
sentence under 28 U.S.C. § 2255.

"Although Petitioner presents

his claims as manifold, he essentially presents two arguments as

to how counsel was allegedly ineffective: that counsel failed to
fully investigate and prepare his defense, and that counsel
pushed him to take a plea agreement he.didn't adequately
understand."

Afolabi v. United States, No. 13-1686, 2016 WL

816749, *6 (D.N.J. Feb. 29, 2016).
3

The court denied the § 2255

X'

motion, and the Third Circuit denied a certificate of
appealability, Afolabi v. United States, No. 16-1983 (3d Cir.
Aug 29, 2016) .
Petitioner filed this petition under 28 U.S.C. § 2241 on
March 21, 2019.

ECF No. 1.

"The Petitioner claims that he is

actually innocent of all the charges against him because of
erroneous advice he had from his attorney to enter into a plea
agreement for the crime he did not commit."

Id. at 19.

"Mr.

Afolabi argues that fact, he did not have sex with the girl when
they travelled to North Carolina, therefore, this crime could
not stand.

Mr. Afolabi had no sex with S.X. and based on the

age approximation of S.X.
in Mr. Afolabi's PSR."1

she was older than 16 as indicated
Id. at 20.

"Under New Jersey and North

Carolina Penal Codes Statute one has to be under 16 years old to
qualify as a minor."

Id.

He also asserts that his sentence was

improperly "enhanced by 4 levels based on an alleged aggrivated
[sic] sexual abuse claims of an adult ex-girlfriend whom he had
a relationship with four years earlier, way before his arrest."
Id. at 21.

He argues this charge is not a crime of violence and

therefore his.sentence is unconstitutional.

Id. at 21-22

(citing Sessions v. Dimaya, 138 S. Ct. 1204 (2018)).

1 Petitioner submitted his PSR to be filed on the docket. ECF
No. 1-2. Because a PSR is not a document intended for public
filing, the Court will order the exhibit to be sealed.
4

Respondent United States now moves to dismiss the petition
based on a lack of jurisdiction under § 2241.

ECF No. 8.

It

argues the claims raised in the petition may only be brought in
a § 2255 proceeding and that Petitioner does not qualify for the
savings clause of § 2255(e).

Petitioner opposes the motion.

ECF No. 9.
II.

DISCUSSION
A.

Legal Standard

Title 28, Section 2243 of the United States Code provides
in relevant part as follows:
A court, justice or judge entertaining an application
for a writ of habeas corpus shall forthwith award the
writ or issue an order directing the respondent to
show cause why the writ should not be granted, unless
it appears from the application that the applicant or
person detained is not entitled thereto.
A pro se pleading is held to less stringent standards than
more formal pleadings drafted by lawyers.

Estelle v. Gamble,

429 U.S. 97, 106 (1976); Haines v. Kerner, 404 U.S. 519, 520
(1972) .

A pro se habeas petition must be construed liberally.

See Hunterson v. DiSabato, 308 F.3d 236, 243 (3d Cir. 2002).
B.

Analysis

Section 2241 "confers habeas jurisdiction to hear the
petition of a federal prisonfer who is challenging not the
validity but the execution of his sentence."
251 F.3d 480, 485 (3d Cir. 2001).

5

Coady v. Vaughn,

A challenge to the validity

of a federal conviction or sentence must be brought under 28
U.S.C. § 2255.
Cir. 2013)

See Jackman v. Shartle, 535 F. App'x 87, 88 (3d

(per curiam)

F.3d 117, 120

(citing Okereke v. United States, 307

(3d Cir. 2002)).

" [Section] 2255 expressly

prohibits a district court from considering a challenge to a
prisoner's federal sentence under § 2241 unless the remedy under
§ 2255 is 'inadequate or ineffective to test the legality of his
detention. / //
2015)

Snyder v. Dix, 588 F. App'x 205, 206 (3d Cir.

(quoting 28 U.S.C. § 2255(e)); see also In re Dorsainvil,

119 F.3d 245, 249 (3d Cir. 1997).
Petitioner asserts this Court should exercise jurisdiction
over the merits of the petition because he is actually innocent
of the crimes to which he pled guilty.

Actual innocence for

purposes of § 2241 means "he is being detained for conduct that
has subsequently been rendered non-criminal by an intervening
Supreme Court decision . .

"

Dorsainvil, 119 F.3d at 252.

However, Petitioner argues he was never guilty to begin with
because he never had sex with S.X., S.X. was over 16, his
relationship with P.H. was consensual, and P.H. was an adult.
He argues trial counsel was aware of all of these facts but
coerced him into pleading guilty.

See ECF No. 1 at 15 ("Mr.

Afolabi raises a number of interrelated challenges to the
validity of his guilty plea, but specifically argues that his
plea was adduced, coerced, made without fully understanding of
6

the charges, and in reliance on promises made (and subsequentlybroken) by the prosecutor."); Id. at 27 (arguing trial counsel
"failed Mr. Afolabi by ignoring, omitting, and suppressing the
facts surrounding the trip to North Carolina with S.X. that he
defendant/petitioner did not have sex with S.X. who at the time
the government claimed was under 18, including the purpose of
the trip.").
Petitioner has not established actual innocence within the
meaning of § 2241.

He admitted.at his Rule 11 hearing that S.X.

was "around 11 years old" when he picked her up from JFK on
October 24, 2002.

Transcript of Plea, Afolabi, No. 07-cr-0785

(D.N.J. Aug. 26, 2009)

(ECFNo. 124, 34:19).

The trip to North

Carolina took place on or about March 4, 2006, which would have
made S.X. 14 or 15 years old.

Id. at 39:12-17.

Petitioner

prevaricated on her exact age, but he admitted he knew she was
under 18.

Id. at 40:12-14.

"Petitioner also testified that,

during that trip, he pushed [S.X.] onto a bed and tried to have
sex with her, even though she begged him not to do so as he was
old enough to be her father."

Afolabi v. United States, No. 13-

1686, 2016 WL 816749, at *3 (D.N.J. Feb. 29, 2016).
Both parties occasionally refer to Petitioner's conviction
as being for "Transportation of minor with Intent to Engage in
Criminal Sexual Activity", but "[b]y its unambiguous terms, §
2423 (b) criminalizes interstate travel for an illicit purpose.
7

The actual age of the intended victim is not an element of the
offense; criminal liability 'turns simply on the purpose for
which [the defendant] traveled.

t ft

446 F.3d 458, 469 (3d Cir. 2006)

United States v. Tykarsky,
((quoting United States v.

Root, 296 F.3d 1222, 1231 (llth Cir. 2002)
original)).

(alteration in

See also Plea Agreement, Afolabi No. 07-cr-0785

(D.N.J. Aug. 26, 2009)

(ECF No. 122 at 1)

("traveling for the

purpose of engaging in illicit sexual conduct with S.X, in
violation of 18 U.S.C. §§ 2423 (b) and 2") .

Therefore even

Petitioner admitted facts that establish S.X.'s age,
Petitioner's § 2423(b) conviction would stand even if S.X.
was
over 16.2 Petitioner has not pointed to
a Supreme Court decision

2 Many of the cases cited by Petitioner regarding age limits
are
immigration cases deciding what offenses make someone removable
from the United States. See, e-S-/ Esquivel-Quintana v.
Sessions, 137 S. Ct.

of the Bureau of Prisons, not immigration authorities. The
Court is not aware of Petitioner, who is a citizen of Toqo
eing subject to a final order of removal, nor does this Court
have jurisdiction to determine whether he is removable from the
United States. 8 Y;S‘C' ^ 1252(g). Petitioner must wait until
immigration proceedings have commenced before challenging his
removal status in the appropriate Court of Appeals as § 1252(g),
as amended by the REAL ID Act. Pub. L. No. 10943, 119 Stat. 231
(2005), explicitly bars judicial review by district courts of
three classes of actions and decisions committed to the
Government's discretion: "the 'decision or action to [(a)]
commence proceedings, [(b)] adjudicate cases, or [(c)] execute
removal orders. / // Chehazeh v. Att'y Gen., 666 F.3d 118, 134 (3d
Cir. 2012) (quoting Reno v. American-Arab Anti-Discrimination
Comm., 525 U.S. 471, 482 (1999) ) .
-------- ---- :
8

that invalidates his conduct;
therefore, he has not demonstrated
"actual innocence" for purposes of § 2241.
To the extent he argues he was coerced into taking this
plea by his counsel,

^>e*'^-t--‘-oner substantively raised this claim

in his motion under § 2255.

See Afolabi v. United static

No.

13-1686, 2016 WL 816749, at *7 (D.N.J. Feb.
29, 2016)
("Petitioner asserts that had counsel
properly investigated, he
would have found that Petitioner
arrayed against him."),

was innocent of the charges

Judge Linares rejected this argument,

noting that "Petitioner admitted

during his plea colloquy that

he and his former wife kept the girls,

forced them to work in

their salons, did not pay them nor keep any tips they
made .

.

and that Petitioner engaged in sexual intercourse with
several
of the girls, including the use of force and his
transport of
one under age girl out of state so that Petitioner
could have
. sex with her." Id.
Judge Linares also related Petitioner's
testimony at Petitioner's ex-wife's trial,

wherein he testified

"that he forced [p.h.]- into having sex with him,
and attempted
to do likewise with underage [S.X.] when he took her

to the

Carolinas with the purpose of having sex with her,
which he
attempted to do over her objections.

Thus, it is clear from

Petitioner's own testimony that he is guilty
of all three of the
counts to which he pled guilty,
innocence are without merit."

and his current assertions of
Id.
9

"A § 2255 motion is inadequate or ineffective only where
the petitioner demonstrates that some limitation or procedure
would prevent a § 2255 proceeding from affording him a full
hearing and adjudication of his wrongful detention claim."
Cradle v. U.S. ex rel. Miner, 290 F.3d 536, 538 (3d Cir. 2002)
(citations omitted).

"Section 2255 is not inadequate or

ineffective merely because the sentencing court does not grant
relief .

.

Id. at 539.

F.2d 395, 396 (3d Cir. 1966)

See also Litterio v. Parker, 369
(per curiam)

(sentencing court's

prior denial of identical claims does not render § 2255 remedy
"inadequate or ineffective").

Because this argument is merely a

rehashing of an argument raised in Petitioner's § 2255 motion or
is an argument that Petitioner could have made in his § 2255
motion, the Court lacks jurisdiction under § 2241.
v. Smith, 165 F. App'x 199 (3d Cir. 2006)

See Francis

(challenge to

voluntariness of plea improper under § 2241)
Petitioner also argues his sentence was improperly enhanced
for aggravated sexual abuse of P.H.

ECF No. 1 at 31.

"The

generic federal definition of sexual abuse a minor requires that
the victim be younger than 16.
minor.

Here,

[P.H.] was an adult not a

She was older than 18 years of age at the time."

Id.

He argues he had a consensual relationship with P.H. and was
coerced into admitting he raped her.

"In this instant case, Mr.

Afolabi did not commit the crime his being enhanced for by 4
10

levels.

Also, the Petitioner does not .meet the above -

stipulated elements
not occur."

as to this alleged 'Rape' charge that did

Id. at 39.

The Third Circuit has

not addressed whether prisoners may
challenge sentencing enhancements using § 2241.
See Murray y.
Warden Fairton FCI, 710 F.
App'x 518, 520 (3d Cir. 2018) (per
curiam) ("We have n°t held that innocence
-of-the-sentence claims
fall within the
exception to the rule that habeas claims
must be
brought in § 2255
motions."),- Boatwright v
j_Warden Fairton FCI.
742 F. App'x 701, 702 (3d Cir.
2018) (citing United States v.
Doe, 810 F.3d 132,
160-61 (3d Cir. 2015)) .
To use § 2241,
"[wjhat matters is that
the prisoner has had no earlier
opportunity to test the

legality of his detention since the

intervening Supreme Court decision issued."

Bruce v. Warden
Lewisburg USP. 868 F.3d 170,
180 (3d Cir. 2017)
Petitioner
insists his sexual
relationship with P.h. was consensual and
between adults.
This is an argument Petitioner
could have
raised on direct appeal or in his § 2255
motion.
Moreover,
there is no intervening Supreme
Court decision rendering
Petitioner 's conviction invalid
as Sessions v, Dimava. which
held that the Immigration and
Nationality Act s residual clause
and its definition of "
crime of violence" was void for
vagueness, is not applicable

to Petitioner' s sentence.

11

138 S.

Ct. 1204 (2018).

The Court therefore lacks jurisdiction over

the § 2241 petition.
Whenever a civil action is filed in a court that lacks
jurisdiction,

"the court shall, if it is in the interests of

justice, transfer such action .
which the action .
was filed."

.

.

. to any other such court in

. could have been brought at the time it

28 U.S.C. § 1631?

As Petitioner has already filed

a motion under § 2255, he may only file a second or successive
motion with the permission of the Third Circuit.
2244, 2255(h).

28 U.S.C. §§

The Court finds that it is not in the interests

of justice to transfer this habeas petition to the Third Circuit
as it does not appear that he can meet the requirements of §
2255(h) for filing a second or successive § 2255 motion.
Nothing in this opinion, however, should be construed as
prohibiting Petitioner from seeking the Third Circuit's
permission to file on his own should he so choose.
III. CONCLUSION
For the foregoing reasons, the motion to dismiss for lack
of jurisdiction the Petition brought pursuant to 28 U.S.C. §
2241 will be granted.

An appropriate order will be entered.

Dated: March 23, 2020
At Camden, New Jersey

s/ Noel L. Hillman____
NOEL L. HILLMAN, U.S.D.J.

12

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
LASSISSI AFOLABI,
Petitioner,
v.

Civ. No. 19-8802 (NLH)
ORDER

DAVID E. ORTIZ,
Respondent.
For the reasons ..set-forth in the Court'-s opinion,
IT IS on this

23rd

day of March, 2020,

ORDERED that Respondent's Motion to Dismiss, ECF No. 8, is
GRANTED to the extent that the Court finds that it lacks
jurisdiction over the Petition for Writ of Habeas Corpus brought
pursuant to 28 U.S.C. § 2241, ECF No. 1; and it is finally
ORDERED that the Clerk of the Court shall serve a copy of
this Order upon Petitioner by regular U.S. mail and mark this
matter closed.

At Camden, New Jersey

s/ Noel L. Hillman____
NOEL L. HILLMAN, U.S.D.J.

V

I

APPENDIX C

20-1958

Lassissi Afolabi
#28877-050
Northlake Cl
P.O. Box 1500
Baldwin, MI 49304

aift'.oi

!

•

-s M ka

»i a

■-X

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-1958

LASSISSIAFOLABI,
Appellant
v.
WARDEN FORT DIX FCI

On Appeal from the United States District Court
for the District of New Jersey
(D.C. Civil Action No. l-19-cv-08802)

PETITION FOR REHEARING

BEFORE: SMITH, ChiefJudge, MCKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY and PHIPPS, Circuit Judges

The petition for rehearing filed by Appellant Lassissi Afolabi in the above-captioned
matter has been submitted to the judges who participated in the decision of this Court and
to all other available circuit judges of the Court in regular active service. No judge who
concurred in the decision asked for rehearing, and a majority of the circuit judges of the
Court in regular active service who are not disqualified didTiot vote for rehearing by the
Court. It is now hereby ORDERED that the petition for rehearing is DENIED.

•*..

V* i

■*'

BY THE COURT,
s/ Paul B. Matey ,,
Circuit Judge
Dated: November 27, 2020
JK/cc: Lassissi Afolabi
All Counsel of Record

2

t*'

APPENDIX D

20-1958

Lassissi Afolabi
#28877-050
Northlake Cl
P.O. Box 1500
Baldwin, MI 49304

'>

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

No. 20-1958

Afolabi v. Warden Fort Dix FCI
(D.N.J. No. l-19-cv-08802)

To:

Clerk
1)

Motion by Appellant for leave to appeal in forma pauperis

The foregoing motion to proceed in forma pauperis is granted. In addition to the
issue of possible summary affirmance under Third Circuit L.A.R. 27.4 and I.O.P. 10.6 set
forth in the letter of May 12, 2020, the appeal will be submitted to a panel of this court
for determination under 28 U.S.C. § 1915(e)(2) as to whether the appeal will be
dismissed as legally frivolous. Although not necessary at this time, appellant may submit
argument, which should not exceed 5 pages, in support of the appeal. The document,
with certificate of service, must be filed with the clerk within 21 days of the date of this
order. Appellee need not file a response unless directed to do so or until a briefing
schedule is issued. The Court may reconsider in forma pauperis status or request
additional information at any time during the course of this appeal.

For the Court,
s/ Patricia S. Dodszuweit
Clerk
Dated: June 8, 2020
JK/cc: Lassissi Afolabi
Susan Millenky, Esq.
J. Andrew Ruymann, Esq.

f-e

APPENDIX E

20-1958

Lassissi Afolabi
#28877-050
Northlake Cl
P.O. Box 1500
Baldwin, MI 49304

OFFICE OF THE CLERK

PATRICIA S.
DODSZUWEIT
CLERK

United States Court of Appeals

TELEPHONE

21400 UNITED STATES COURTHOUSE
601 MARKET STREET
PHILADELPHIA, PA 19106-1790

215-597-2995

Website: www.ca3.uscourts.gov
December 7, 2020

Mr. William T. Walsh
United S lates District Cour t for the District of New Jersey
Mitchell 11. Cohen Building & United States Courthouse
4th & Cooper Streets
Room 1050
Camden, NJ 08101

RE: Lassissi Afolabi v. Warden Fort Dix FCI
Case Number: 20-1958
District Court Case Number: l-19-cv-08802
Dear District Court Clerk,
Enclosed herewith is the certified judgment together with copy of the opinion in the
above-captioned case(s). The certified judgment is issued in lieu of a formal mandate and
is to be treated in all respects as a mandate.
Counsel are advised of the issuance of the mandate by copy of this letter. The certified
judgment is also enclosed showing costs taxed, if any.
Very truly yours,
s/ Patricia S. Dodszuweit
Clerk
By: James King
Case Manager
267-299-4958
cc:

Lassissi Afolabi
Mark E. Coyne
Susan Millenky
J. Andrew Ruymann

CLD-298
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-1958

LASSISSIAFOLABI,
Appellant
v.
WARDEN FORT DIX FCI

On Appeal from the United States District Court
for the District of New Jersey
(D.C. Civil Action No. l-19-cv-08802)
District Judge: Honorable Noel L. Hillman

Submitted for Possible Dismissal Pursuant to 28 U.S.C. § 1915(e)(2)(B) or
Summary Action Pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6
September 3,2020
Before: JORDAN, KRAUSE and MATEY, Circuit Judges

JUDGMENT

This cause came to be considered on the record from the United States DistrictCourt for the District of New Jersey and was submitted for possible dismissal pursuant to
28 U.S.C. § 1915(e)(2)(B) and for possible summary action pursuant to Third Circuit
LAR 27.4 and I.O.P. 10.6 on September 3, 2020. On consideration whereof, it is now
hereby

ORDERED and ADJUDGED by this Court that the judgment of the District
Court entered March 23, 2020, be and the same hereby is affirmed. All of the above in
accordance with the opinion of this Court.
ATTEST:
s/ Patricia S. Dodszuweit
Clerk
DATED: September 16, 2020
........../<
•• «

$40

'■''It

*« o1

c

t-j

H

K-1

Certified*p$d
.* c.
of a forrrtj»J luaTtdate^A

issued in lieu

12/07/2020

Teste:
Clerk, U.S. Court of Appeals for the Third Circuit

2

CLD-298

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-1958

LASSISSIAFOLABI,
Appellant
v. '
WARDEN FORT DIX FCI

On Appeal from the United States District Court
for the District of New Jersey
(D.C. Civil Action No. l-19-cv-08802)
District Judge: Honorable Noel L. Hillman

Submitted for Possible Dismissal Pursuant to 28 U.S.C. § 1915(e)(2)(B) or
Summary Action Pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6
September 3, 2020
Before: JORDAN. KRAUSE and MATEY. Circuit Judges
(Opinion filed: September 16, 2020)

OPINION*

PER CURIAM
Pro se appellant Lassissi Afolabi appeals the District Court’s dismissal of his
habeas petition filed pursuant to 28 U.S.C. § 2241. Because the appeal fails to present a

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not

substantial question, we will summarily affirm the District Court’s judgment. See 3d Cir.
L.A.R. 27.4; 3d Cir. I.O.P. 10.6.
Afolabi, a federal prisoner, is currently serving a 292 months’ sentence imposed
by the United States District Court for the District of New Jersey after pleading guilty to
conspiracy to commit forced labor, conspiracy to commit trafficking with respect to
forced labor, and conspiracy to commit document servitude in violation of 18 U.S.C.
§ 371; providing and obtaining forced labor, two counts of which involved aggravated
sexual abuse, in violation of 18 U.S.C. §§ 1589, 1590, & 1592; and transportation of a
minor with intent to engage in criminal sexual activity in violation of 18 U.S.C. §
2423(b). The charges stemmed from a human trafficking scheme he ran with his ex-wife,
their son, and others, through which they brought more than 20 West African girls, ages
10-19, from Togo and Ghana to the United States, and forced them to work in hair­
braiding salons for up to 14 hours a day, six or seven days a week.

We affirmed

Afolabi’s judgment of sentence on direct appeal. See United States v. Afolabi. 455 F.
App’x 184 (3d Cir. 2011).
In 2013, Afolabi filed a motion to vacate his sentence pursuant to 28 U.S.C.
§ 2255, in which he claimed that his counsel provided ineffective assistance for, inter
alia, failing to adequately investigate his defense, causing him to plead guilty to charges
despite his innocence. The District Court denied the § 2255 motion on the merits, and we
declined to issue a certificate of appealability. See C.A. No. 16-1983.

constitute binding precedent.

2

While he was in custody in Fort Dix, New Jersey, Afolabi filed the instant § 2241
petition challenging his conviction and sentence on various grounds, including that his
counsel’s erroneous advice caused him to plead guilty despite his innocence. The District
Court dismissed the petition for lack of jurisdiction, and this appeal ensued.
We have appellate jurisdiction pursuant to 28 U.S.C. § 1291. In reviewing the
District Court’s dismissal of the § 2241 petition, we exercise plenary review over its legal
conclusions and review its factual findings for clear error. See Cradle v. United States ex
rel. Miner, 290 F.3d 536, 538 (3d Cir. 2002) (per curiam).
Generally, the execution or carrying out of an initially valid confinement is the
purview of a § 2241 proceeding, as attacks on the validity of a conviction or sentence
must be asserted under § 2255. See Okereke v. United States. 307 F.3d 117, 120 (3d Cir.
2002). Afolabi may not pursue a collateral attack on his conviction and sentence by way
of § 2241 unless he can show that “the remedy by [§ 2255] motion is inadequate or
ineffective to test the legality of his detention.” 28 U.S.C. § 2255(e). Under this “safety
valve” provision, a prior unsuccessful § 2255 motion or the inability to meet the statute’s
stringent gatekeeping requirements does not render § 2255 inadequate or ineffective. See
In re Dorsainvil; 119 F.3d 245, 251 (3d Cir. 1997). Rather, the exception is narrow,
limited to extraordinary circumstances such as where the petitioner “had no earlier
opportunity” to present his claims and has been convicted for conduct which is no longer
deemed criminal. Id.

3

This is clearly not a situation in which Afolabi “had no earlier opportunity to
challenge his conviction.” Id Indeed, he challenged the validity of his guilty plea on
direct appeal and in § 2255 proceedings on the same, or substantively similar, bases.
Afolabi reasons that he should be allowed to seek relief under § 2241 ’s “saving[s] clause”
because he is actually innocent of the charges against him. Specifically, he maintains that
he “had no sex with S.X.” and “she was older than 16” at the time of the alleged offense.
As the District Court explained, Afolabi’s admissions at the plea hearing belie his claim
of innocence, and, in any event, his actual innocence claim does not come within the
scope of the savings clause. See Bruce v. Warden Lewisburg USP. 868 F.3d 170, 180
(3d Cir. 2017) (noting that access to § 2241 is limited to actual innocence claims based
“on the theory that [the defendant] is being detained for conduct that has subsequently
been rendered non-criminal by an intervening Supreme Court decision”) (internal
quotation marks omitted)). The thrust of Afolabi’s other innocence argument is that the
Government and the District Court are wrongly interpreting the statute under which he
\

was convicted, not that the Supreme Court has construed or interpreted it differently. Cf.
Dorsainvil, 119 F.3d at 247, 251 (holding that petitioner could resort to § 2241 to pursue
his claim where the Supreme Court’s decision interpreting 18 U.S.C. § 924(c)(1)
rendered his conviction invalid). We also agree, for the reasons provided by the District
Court, that Afolabi may not pursue, in a § 2241 petition, his claim that his sentence is
unconstitutional because he was not convicted of a crime of violence. See also Gardner
v. Warden Lewisburg USP. 845 F.3d 99, 103 (3d Cir. 2017) (“unlike the change in
4

substantive law leading to the exception in Dorsainvil. issues that might arise regarding
sentencing did not make § 2255 inadequate or ineffective”).
For the foregoing reasons, the District Court correctly ruled that it lacked
jurisdiction to entertain the § 2241 petition.

Accordingly, because no “substantial

question” is presented as to the petition’s dismissal, we will summarily affirm the
judgment of the District Court. See 3d Cir. LAR 27.4; 3d Cir. I.O.P. 10.6. Appellant’s
motion for appointment of counsel is denied.

5

•s

APPENDIX F

•• r.rv ~

r» ••

K.

x. v

CM/ECF LIVE - U.S. District Court for the District of New Jersey

https://ecf.njd.circ3.dcn/cgi-bin/Dispatch.pl765332838034957

Other Orders/Judgments
1:19-CV-08802-NLH AFOLABI v.
ORTIZ
HABEAS, IFP.PLO
U.S. District Court
District of New Jersey [LIVE]
Notice of Electronic Filing
The following transaction was entered on 8/7/2019 at 8:29 AM EDT and filed on 8/7/2019
Case Name:
AFOLABI v. ORTIZ
Case Number:
l:19-cv-08802-NLH
Filer:
Document Number: 6
Docket Text:
ORDER that Respondent's request for an extension of time is GRANTED; Respondent
must file the answer within fourteen days from the date of entry of this order. Signed by
Judge Noel L. Hillman on 8/6/2019. (tf, n.m.)
l:19-cv-08802-NLH Notice has been electronically mailed to:
JOHN ANDREW RUYMANN

john.ruymann@usdoj .gov, usanj .ecftrentoncivil@usdoj .gov

l:I9-cv-08802-NLH Notice has been sent by regular U.S. Mail:
LASSISSI AFOLABI
28877-050
FORT DIX
FEDERAL CORRECTIONAL INSTITUTION
Inmate Mail/Parcels
EAST: RO. BOX 2000
FORT DIX, NJ 08640
The following document(s) are associated'wittrthis transaction:Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=1046708974 [Date=8/7/2019] [FileNumber=12842680-0
] [7acd5d882ca9a32b23a8ca3097bf8fd9a0d9fbece5c50e9bf5f50b6204161ecbd79
a0c4eed63dal42483c2295544ab2c87571994fb75a460c5ae3f44fb231b94]]

of 1

8/7/2019, 8:28 AM

4*.

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY

LASSISSI AFOLABI,
No. 19-CV-8802 (NLH)
Petitioner,
v.

ORDER

DAVID E. ORTIZ,
Respondent.

1.

Respondent has filed a request *for a brief extension of

time in which to file the answer to' Petitioner's Petition for
Writ of Habeas Corpus brought pursuant to 28 U.S.C. § 2241.

See

ECF No. 4.
2.

Specifically, Respondent requests the additional time

in order to permit coordination with the U.S. Attorney's
Office's Criminal Division to provide a more complete response
to the Petition.
2.

See id.

The Court will grant the requested extension of time in

which to file the answer.
IT IS therefore on this

6th

day of August, 2019,

ORDERED that Respondent's request for an extension of time.
ECF No. 4, is GRANTED; and it is further
ORDERED that Respondent must file the answer within
fourteen days from the date of entry of this order; and it is
finally

ORDERED that the Clerk of Court shall serve a copy of this
Order on Petitioner by regular U.S. mail.

s/ Noel L. Hillman
NOEL L. HILLMAN, U.S.D.J.

At Camden, New Jersey

2

CM/ECF'LIVE - U.S. District Court for the District of New Jersey

https://ecf.njd.circ3 .dcn/cgi-bin/Dispatch.pl?5936857482169] i

Other Orders/Judgments
1:19-CV-08802-NLH AFOLABI v.
ORTIZ
HABEAS,IFP.PLO
U.S. District Court
District of New Jersey [LIVE]
Notice of Electronic Filing
The following transaction was entered on 8/7/2019 at 2:33 PM EDT and filed on 8/7/2019
AFOLABI v. ORTIZ
Case Name:
Case Number:
1:19-CV-08802-NLH
Filer:
Document Number: 7
Docket Text:
ORDER granting Respondent's request to file a motion to dismiss. Signed by Judge Noel
L. Hillman on 8/7/2019. (tf, n.m.)
l:19-cv-08802-NLH Notice has been electronically mailed to:
JOHN ANDREW RUYMANN

john.ruymann@usdoj .gov, usanj .ecftrentoncivil@usdoj .gov

l:19-cv-08802-NLH Notice has been sent by regular U.S. Mail:
LASSISSI AFOLABI
28877-050
FORT DIX
FEDERAL CORRECTIONAL INSTITUTION
Inmate Mail/Parcels
EAST: P.O. BOX 2000
FORT DIX, NJ 08640
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=1046708974 [Date=8/7/2019] [FileNumber=12845263-0
] [58a4aaa36al3559a9e5ac69782acc4cd69442431a327fF77ee799404f0f8c70edee
d8dbldll4c5b93561fd23215f28e35244b42d747ead7blcb0905226330162]]

l of 1

8/7/2019,2:32 PM

V/
<£*•

> %

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY

LASSISSI AFOLABI,
No. 19-CV-8802 (NLH)
Petitioner,
v.

ORDER

DAVID E. ORTIZ,
Respondent.

IT APPEARING THAT:
1.

Respondent has requested by letter leave of Court to

file a motion to dismiss regarding jurisdiction in lieu of an
answer.
2.

See ECF No. 5.
The Court will permit Respondent to file a motion to

dismiss in lieu of an answer.
IT IS therefore on this

7th

day of August, 2019,

ORDERED that Respondent's request to file a motion to
dismiss, ECF No. 5, is GRANTED; and it is finally
ORDERED that the Clerk of Court shall serve a copy of this
Order on Petitioner by regular U.S. mail.

At Camden, New Jersey

Noel L. Hillman
NOEL L. HILLMAN, U.S.D.J.

APPENDIX G

1&/ECFT1IVE - U.S. District Court for the District of New Jersey

https://ecf.njcf circ3 .dcn/cgi-bin/Dispatch.pl?69413400733739

Other Orders/Judgments
1:19-CV-08802-NLH AFOLABI v.
ORTIZ
HABEAS, IFP.PLO
U.S. District Court
District of New Jersey [LIVE]
Notice of Electronic Filing
The following transaction was entered on 6/24/2019 at 3:07 PM EDT and filed on 6/24/2019
AFOLABI v. ORTIZ
Case Name:
jCas&Nisnbei^__. .1:
Filer:
Document Number: 3
Docket Text:
ORDER TO ANSWER; Respondent shall file an answer within forty-five (45) days of the
date of this Order, etc. Signed by Judge Noel L. Hillman on 6/24/2019. (rss,)
l:19-cv-08802-NLH Notice has been electronically mailed to:
JOHN ANDREW RUYMANN

john.ruymann@usdoj.gov, usanj.ecftrentoncivil@usdoj.gov

l :19-cv-08802-NLH Notice has been sent by regular U.S. Mail:
LASSISSI AFOLABI
28877-050
FORT DIX
FEDERAL CORRECTIONAL INSTITUTION
Inmate Mail/Parcels
EAST: P.0. BOX 2000
FORT DIX, NJ 08640
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_H>l046708974 [Date=6/24/2019] [FileNumber=126913320] [0213f8b0cbe82f94d671 f0859bb0d7e001088cb93a022df718af01 de3ed81 a62b5
2c64cce2c883399dff00367a60c580b3b85d6cbb6b995a5658227b2d0a8b73]]

■vF 1

6/24/2019. 3:06 PM

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY

i

LASSISSI AFOLABI,
Civ. No. 19-8802 (NLH)

Petitioner,
v.

ORDER TO ANSWER

!

DAVID E. ORTIZ,
Respondent.

I

I

Petitioner is a prisoner currently incarcerated at the
Federal Correctional Institution at Fort Dix in Fort Dix, New
Jersey.

ECF NO. 1.

He is proceeding pro se with a Petition for

Writ of Habeas Corpus pursuant to 28 U.S.C. § 2241 and has paid
the required filing fee.

Id.

In accordance with Rule 4 of the Rules Governing Section
2254 Cases, applicable to § 2241 cases through Rule 1(b) of the
Rules Governing Section 2254 Cases, this Court has screened the
Petition for dismissal and determined that dismissal without an
answer and production of the record is not warranted.
_ Therefore, ..IT . IS on this . 24 th—„day of -June,,.. .2X119
ORDERED that the Clerk shall serve a copy of the Petition,
ECF No. 1, and this Order upon Respondent by regular mail, with
all costs of service advanced by the United States; and it is
further
ORDERED that the Clerk shall forward a copy of the Petition
and this Order to the Chief, Civil Division, United States

* «

Attorney's Office, at the following email address:

USANJ-

HabeasCases@usdoj.gov; and it is further
ORDERED that within forty-five (45) days of the date of
this Order, Respondent shall file and serve an answer which
responds to the allegations and grounds in the Petition and
which includes all affirmative defenses Respondent seeks to
invoke; and it is further
ORDERED that Respondent shall file and serve with the
answer certified copies of all documents necessary to resolve
Petitioner's claims and affirmative defenses; and it is further
ORDERED that within thirty (30) days of receipt of the
answer, Petitioner may file a reply to the answer,- and it is
finally
ORDERED that within seven (7) days of Petitioner's release,
be it parole or otherwise, Respondent shall electronically file
a written notice of the same with the Clerk.

At Camden, New Jersey __

s/ Noel L. Hillman_______
____N0EL.L,. HILLMAN, IT.SJD.J_

2

APPENDIX H

■ ”vr-'

-r,'-"

20-1958

Lassissi Afolabi
#28877-050
Northlake Cl
P.O. Box 1500
Baldwin, MI 49304
• .»

■ na»«

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
No. 20-1958
LASSISSIAFOLABI
v.
WARDEN FORT DIX FCI
(D.N.J. No. l-19-cv-08802)
Present: JORDAN, KRAUSE and MATEY, Circuit Judges
1.

Motion by Appellant Lassissi Afolabi titled Application for Admission to
Bail.
Respectfully,
Clerk/JK
ORDER

The foregoing Motion is DENIED.

By the Court,
s/Paul B. Matey
Circuit Judge
Dated: November 16, 2020
JK/cc: Lassissi Afolabi
Mark E. Coyne, Esq.
Susan Millenky, Esq.
J. Andrew Ruymann, Esq.

I

5

APPENDIX I

U 64.05 Interstate Travel to Engage in Illicit Sexual Conduct (18 U.S.C. 5 2423(b)).

Instruction 64-20 The Indictment and the Statute

The indictment charges the defendant with interstate travel to engage in illicit sexual conduct.
The indictment reads as follows:

[Read Indictment]
The indictment charges the defendant with violating section 2423(b) of Title 18 of
the United States Code. That section provides in relevant part:

A person who travels in interstate commerce or travels into the United States, or a
United States citizen or an alien admitted for permanent residence in the United
States who travels in foreign commerce, for the purpose of engaging in any illicit
sexual conduct with another person shall be [guilty of a crime].
Comment

Section 2423(b) was originally enacted in 1994. As originally passed, the statute provided as
follows:

A person who travels in interstate commerce, or conspires to do so, or a United States citizen or
an alien admitted for permanent residence in the United States who travels in foreign commerce,
or conspires to do so, for the purpose of engaging in any sexual act (as defined in section 2245)
with a person under 18 years of age that would be in violation of chapter 109A if the sexual act
occurred in the special maritime and territorial jurisdiction of the United States shall be fined
under this title, imprisoned not more than 10 years, or both. 1

Note that the reference to the definition of a sexual act as defined in section 2245 was erroneous.
Section 2245 is the provision authorizing the death penalty if the victim of sexual abuse dies as a
result of the offense. The actual definition of sexual act is in section 2246(2). Because of this
error, several convictions were reversed since the section as drafted required the death of the
victim. 2 This error was corrected in 1995 by eliminating the cross-reference, and adopting the
definition of “illicit sexual conduct” in section 2423(f), which in turn incorporates the definition in
section 2246. 3

The constitutionality of section 2423(b) has been upheld against several constitutional
485

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

challenges. This provision does not violate the Commerce Clause because it requires as an
element that the defendant travel in interstate commerce or foreign commerce with an improper
motive. 4 The First Amendment challenges have been rejected because the statute regulates
conduct (interstate or foreign travel) with illegal intent. 5 Finally, the statute does not burden any
rights under the Travel Clause because the constitutional right to cross state lines does not imply
a right to cross state lines to engage in illegal activity. 6

!

Footnotes

1
Violent Crime Control and Law Enforcement Act of 1994, Pub. L. 103-322, Title XVI, §
160001(g), 108 Stat. 2037 (1994).
2
United States v. Moore, 136 F.3d 1343, 1344-45 (9th Cir. 1998); United States v. Childress, 104
F.3d 47, 50-53 (4th Cir. 1996).
3
Sex Crimes Against Children Prevention Act, Pub. L. 104-71, § 5, 109 Stat. 774 (1995).
4
United States v. Hawkins, 513 F.3d 59, 61 (2d Cir.), cert, denied, 553 U.S. 1060 (2008); United
States v. Tykarsky, 446 F.3d 458, 470 (3d Cir. 2006); United States v. Bredimus, 352 F.3d 200,
205-208 (5th Cir. 2003) (noting that Congress has even greater latitude to regulate foreign
commerce than it does to regulate interstate commerce); United States v. Brockdorff, 992 F.
Supp. 22, 24-25 (D.D.C. 1997).
5
United States v. Tykarsky, 446 F.3d 458, 471 (3d Cir. 2006); United States v. Buttrick, 432 F.3d
373, 375-76 (1st Cir. 2005); United States v. Bredimus, 352 F.3d 200, 205-08 (5th Cir. 2003);
United States v. Han, 230 F.3d 560, 562-63 (2d Cir. 2000).
6
United States v. Tykarsky, 446 F.3d 458, 472 (3d Cir. 2006); United States v. Buttrick, 432 F.3d
373, 376 (1st Cir. 2005); United States v. Brockdorff, 992 F. Supp. 22, 25 (D.D.C. 1997) (citing
United States v. Hoke, 227 U.S. 308, 33 S. Ct. 281, 57 L. Ed. 523 (1913)).

Instruction 64-21 Elements of the Offense

In order to prove the defendant guilty of interstate travel to engage in illicit sexual conduct, the
government must prove each of the following elements beyond a reasonable doubt:
First, that the defendant traveled in interstate or foreign commerce; and
Second, that defendant acted with the intent to engage in illicit sexual conduct.

Authority
First Circuit: United States v. Gamache, 156 F.3d 1 (1st Cir. 1998).

485

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Second Circuit: United States v. Murphy, 942 F.3d 73 (2d Cir. 2019) (quoting Treatise).
Fifth Circuit: United States v. Bredimus, 352 F.3d 200 (5th Cir. 2003).
Sixth Circuit: United States v. DeCarlo, 434 F.3d 447 (6th Cir. 2006).
Seventh Circuit: United States v. Vang, 128 F.3d 1065 (7th Cir. 1997).
Eleventh Circuit: United States v. Hersh, 297 F.3d 1233 (11th Cir. 2002); United States v. Root, 296
F.3d 1222 (11th Cir. 2002).
Comment

The recommended formulation is widely accepted. 1 Note that engaging in the intended illegal sex at
the destination is not an element of this offense. 2
Footnotes

1
See, e.g., United States v. Murphy, 942 F.3d 73, 80 (2d Cir. 2019) (quoting Treatise); United
States v. DeCarlo, 434 F.3d 447, 456 (6th Cir. 2006); United States v. Bredimus, 352 F.3d 200,
208 (5th Cir. 2003); United States v. Hersh, 297 F.3d 1233, 1246 (11th Cir. 2002); United States
v. Gamache, 156 F.3d 1, 8 (1st Cir. 1998); United States v. Vang, 128 F.3d 1065, 1068 (7th Cir.
1997).
2
United States v. Hersh, 297 F.3d 1233, 1246-47 (11th Cir. 2002); United States v. Root, 296
F.3d 1222, 1231-32 (11th Cir. 2002).

Instruction 64-22 First Element—Interstate Travel

The first element that the government must prove beyond a reasonable doubt is that defendant
traveled in interstate commerce (or traveled into the United States or being a U.S. citizen or alien
admitted for permanent residence traveled in foreign commerce), as alleged in the indictment.
“Travel in interstate commerce” means simply movement between one state and another.
Comment

The Second Circuit has recently held that “travel in foreign commerce” does not include travel entirely
between two foreign countries. 1
Footnotes

1
485

3

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

United States v. Weingarten, 632 F.3d 60, 65-70 (2d Cir. 2011). In this case, defendant was an
American citizen residing in Belgium and later in Israel. He was charged with several violations
of section 2423(b) for sexually abusing his daughter. One of the counts related to travel from
Israel to the United States, another for travel from the United States to Belgium, and a third for
travel between Belgium and Israel. The court of appeals held that since the first count involved
sexual conduct in the United States, it clearly was covered, and that the second was covered
because it involved travel from the United States to engage in illegal conduct. However, the
court reversed the conviction on the third count because it involved only travel between two
foreign countries. Id.

Instruction 64-23 Second Element—Intent to Engage in Illicit Sexual Conduct

The second element that the government must prove beyond a reasonable doubt is that
defendant traveled in interstate commerce with the intent to engage in illicit sexual conduct.
The term “illicit sexual conduct” means [describe allegations in indictment, e.g., a sexual act
with a person who had reached the age of twelve years old but had not reached the age of
sixteen years old, and who is at least four years younger than the defendant] (or any sex act, on
account of which anything of value is given to or received by any person).
The government does not have to prove that the defendant actually engaged in illicit sexual
conduct, but must prove that he or she traveled with the intent to engage in such conduct. Direct
proof of a person’s intent is almost never available. It would be a rare case where it could be
shown that a person wrote or stated that as of a given time he committed an act with a particular
intent. Such direct proof is not required. The ultimate fact of intent, though subjective, may be
established by circumstantial evidence, based upon the defendant’s outward manifestations, his
words, his conduct, his acts and all the surrounding circumstances disclosed by the evidence
and the rational or logical inferences that may be drawn from them.
In order to establish this element, it is not necessary for the government to prove that engaging
in illicit sexual conduct was the sole purpose for crossing the state line. A person may have
several different purposes or motives for such travel, and each may prompt in varying degrees
the act of making the journey. The government must prove beyond a reasonable doubt, however,
that a significant or motivating purpose of the travel across a state line was to engage in illicit
sexual conduct. In other words, that illegal activity must not have been merely incidental to the
trip.

Authority
Second Circuit: United States v. Murphy, 942 F.3d 73 (2d Cir. 2019) (quoting Treatise).
Comment

485

4

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Formulating a proper charge on this element requires reference to a number of statutes and the
particular allegations in the indictment or bill of particulars. With respect to this element, section
2423(b) provides that defendant must travel “for the purpose of engaging in any illicit sexual
conduct with another person.” The phrase “illicit sexual conduct” is defined in section 2423(f) as
follows:

(1) a sexual act (as defined in section 2246) with a person under 18 years of age that would be in
violation of chapter 109A if the sexual act occurred in the special maritime and territorial
jurisdiction of the United States; or (2) any commercial sex act (as defined in section 1591) with a
person under 18 years of age. 1

Section 2246 defines a “sexual act” as:

(A) contact between the penis and the vulva or the penis and the anus, and for purposes of this
subparagraph contact involving the penis occurs upon penetration, however slight;

(B) contact between the mouth and the penis, the mouth and the vulva, or the mouth and the
anus;

(C) the penetration, however slight, of the anal or genital opening of another by a hand or finger
or by any object, with an intent to abuse, humiliate, harass, degrade, or arouse or gratify the
sexual desire of any person; or

(D) the intentional touching, not through the clothing, of the genitalia of another person who has
not attained the age of 16 years with an intent to abuse, humiliate, harass, degrade, or arouse or
gratify the sexual desire of any person; 2

Chapter 109A contains the sexual abuse offenses in the United States Code, 3 the elements of
which are discussed in Chapter 61, Sexual Abuse. Finally, section 1591 defines a commercial
sexual act as “any sex act, on account of which anything of value is given to or received by any
person.” 4

Put simply, the government must allege and prove that the defendant traveled with the intent to
engage in sexual activity that, if it had occurred, could have been charged as a federal offense if it
had occurred in a federal enclave. Thus, it will be necessary to incorporate a general description
of the conduct element of the sexual abuse offense that it is alleged defendant intended to
commit. This is relatively simple in cases involving the sexual abuse of children. Thus, if the
intended victim was less than twelve years old, then that should be incorporated into the
instruction; if the victim was between twelve and sixteen, then the age of the intended victim and

485

5

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

the age difference between the victim and the defendant should be included. The age of consent
under federal law is sixteen years old, so under federal law, sex with a person between sixteen
and eighteen is chargeable only if the defendant engaged in coercive conduct, such as the use of
force or threats or administering some intoxicant to the victim. 5 If the intended victim is older
than eighteen, it is not chargeable under section 2423(b), although it might be a violation of some
other provision such as the Travel Act 6 or the interstate stalking statute. 7

In United States v. Murphy, 7.1 the Second Circuit rejected the government’s arguments that this
crime does not require that the defendant know that the intended victim was under the age of
sixteen. Therefore, a defendant who apparently believed that he was going to have sex with a
sixteen-year-old was not guilty of violating § 2423(b).

This element concerns only the defendant’s intent, so it is not an element that the intended sexual
activity actually occurred or that the minor victim actually existed. Thus, in a sting operation in
which a law enforcement officer poses as a minor or the parent of a minor, if the defendant
travels with the necessary intent to engage in sexual activity with that minor, it is chargeable
under this provision as a completed offense. 8 Further, the District of Columbia Circuit has held
that it is not necessary to prove that defendant intended to engage in illegal sexual activity on this
interstate trip, as long as the trip was in anticipation of that underlying purpose. 9

Finally, for authority for and discussion of the last paragraph concerning the defense that the
sexual activity was not the sole purpose of the travel, see Instruction 64-4, above.
Footnotes
1
18 U.S.C. § 2423(f).
2
18 U.S.C. §2246(2).
3
18 U.S.C. §§2241-2245.
4

18 U.S.C. § 1591(c)(1).
5
See United States v. Murphy, 942 F.3d 73 (2d Cir. 2019) (quoting Treatise). Note that the
Justice Department has previously requested Congress to delete the reference to chapter 109A
because the discrepancy between the age of consent in the sexual abuse offenses and the age
limit in section 2423 has resulted in the inability to prosecute in some potential cases. See H.R.
Rep. No. 105-557, at 27-28, reprinted at 1998 U.S. Code. Cong. & Admin. News 678, 696 (letter
of Ann M. Harkins, Acting Assistant Attorney General).
6
18 U.S.C. § 1952; see Chapter 60, above.

7
18 U.S.C. § 2261A(1); see Chapter 63, above.

7.1
942 F.3d 73 (2d Cir. 2019) (quoting Treatise).

485

6

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

8
United States v. Langley, 549 F.3d 726, 730 (8th Cir. 2008); United States v. Kelly, 510 F.3d
433, 440-41 (4th Cir. 2007), cert, denied, 552 U.S. 1329 (2008); United States v. Tykarsky, 446
F.3d 458, 469 (3d Cir. 2006); United States v. Sims, 428 F.3d 945, 959 (10th Cir. 2005); United
States v. Root, 296 F.3d 1222, 1231-32 (11th Cir. 2002).

9
United States v. Laureys, 653 F.3d 27, 33 (D.C. Cir. 2011), cert, denied, 565 U.S. 1132, 132 S.
Ct. 1053, 181 L. Ed. 2d 773 (2012). In Laureys, the defendant had engaged in a discussion with
what he believed was an adult (actually a police officer) who was willing to arrange for defendant
to engage in sexual conduct with a nine-year-old girl. The two arranged to meet for a beer and
possibly to engage in sexual activity with each other with no understanding that the girl would be
present. The court of appeals held this was sufficient, reasoning that the trip was “in anticipation
of the intended sexual conduct with a minor.” Id. at 33. But see id. at 44 (Brown, J., dissenting)
(arguing that this trip was at most “mere preparation” for a future attempt, but not an attempt in
itself).

485

7

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

/
l

APPENDIX J

1J 47A.02 Forced Labor (18 U.S.C. $ 1589)

Instruction 47A-8 The Indictment and the Statute

The indictment charges the defendant with holding another person in forced labor. The
indictment reads as follows:
[Read Indictment]
The indictment charges the defendant with violating section 1589 of Title 18 of the United
States Code. That section provides in part:

Whoever knowingly provides or obtains the labor or services of a person by any one of, or
by any combination of, the following means-

(1) by means of force, threats of force, physical restraint, or threats of physical restraint to
that person or another person;

(2) by means of serious harm or threats of serious harm to that person or another person;

(3) by means of the abuse or threatened abuse of law or legal process; or

(4) by means of any scheme, plan, or pattern intended to cause the person to believe that,
if that person did not perform such labor or services, that person or another person would
suffer serious harm or physical restraint,
shall be [guilty of a crime].
Comment

Section 1589 was originally enacted in 2000 as part of the Trafficking Victims Protection Act
(TVPA). 1 It was substantially reorganized in 2008, 2 although the amendment did not make
significant substantive changes.

As discussed in the Comment to Instruction 47A-3, above, in United States v. Kozminski, 3 the
Supreme Court interpreted the term “involuntary servitude” in the Thirteenth Amendment and
section 1584 to include only the use or threat of physical or legal coercion, and to exclude the use
485

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

of psychological coercion. 4 As a result, this created a gap in the law when an individual used
purely psychological means to hold another to compulsory service. Congress determined that
there was a need

to address the increasingly subtle methods of traffickers who place their victims in modern-day
slavery, such as where traffickers threaten harm to third persons, restrain their victims without
physical violence or injury, or threaten dire consequences by means other than overt violence. 5

One option available to Congress was to simply redefine the term “involuntary servitude” in
section 1584 to include psychological coercion, an option approved by the Senate. 6 At
conference, the legislature chose the House option, passing new section 1589, a more
comprehensive provision that includes psychological coercion and also overlaps some of the
coverage of section 1584(a). Thus, section 1589 provides broader protections than section
1584(a) as it was limited in Kozminski, covering what one court has called “non-violent” and
“non-physical” forms of coercion. 7

The 2008 amendment reorganized and clarified the descriptions of the types of coercion that
would constitute an offense, added a provision stating that any one or any combination of the
coercive methods listed constitutes an offense, and provided more explicit definitions of some of
the terms in the statute. 8

Section 1589 has been the subject of several constitutional challenges, all of which have been
rejected. First, a vagueness challenge has been rejected by several courts because the statute
contains a scienter element that fairly puts potential defendants on notice of what they cannot do.
9 Second, a First Amendment overbreadth challenge was rejected because the statute punishes
conduct and not speech. 10 Finally, a Commerce Clause challenge was rejected because the
statute is authorized by section 2 of the Thirteenth Amendment, which gives Congress authority “
‘to pass all laws necessary and proper for abolishing all badges and incidents of slavery in the
United States,’ ” and so is constitutional without proof of any effect on interstate commerce. 11
Footnotes

1
Pub. L. No. 106-386, § 112, 114 Stat. 1486 (2000).
2
William Wilberforce Trafficking Victims Protection Reauthorization Act, Pub. L. No. 110-457, tit.
II, § 222(b)(3), 122 Stat. 5068 (2008). William Wilberforce was a member of the British
parliament in the late 18th and early 19th centuries, and was a leading advocate for the abolition
of slavery in the United Kingdom.
3
487 U.S. 931, 108 S. Ct. 2751, 101 L. Ed. 2d 788 (1988).
4
Id at 951-53.
5
H. Rep. No. 106-939, at 101 (Conf. Rep.), reprinted at 2000 U.S. Code Cong. & Admin. News
485

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

1380, 1392-93.
6
See id. at 100, reprinted at 2000 U.S. Code Cong. & Admin. News 1380, 1392.
7
United States v. Calimlim, 538 F.3d 706, 712, 714 (7th Cir. 2008); see also United States v.
Bradley, 390 F.3d 145, 150 (1st Cir. 2004), vacated on sentencing grounds, 545 U.S. 1101
(2005).
8
William Wilberforce Trafficking Victims Protection Reauthorization Act, Pub. L. No. 110-457, tit
II, § 222(b)(3), 122 Stat. 5068 (2008).

9
United States v. Calimlim, 538 F.3d 706, 711 (7th Cir. 2008); United States v. Garcia, 2003 U.S.
Dist. LEXIS 22088 (W.D.N.Y. 12/2/2003); see United States v. Marcus, 628 F.3d 36, 45 n.12 (2d
Cir. 2010) (rejecting vagueness challenge because defendant’s conduct was “clearly proscribed
by the statute”).

10
United States v. Calimlim, 538 F.3d 706, 712 (7th Cir. 2008).

11
United States v. Garcia, 2003 U.S. Dist. LEXIS 22088 (W.D.N.Y. 12/2/2003) (quoting Jones v.
Alfred H. Mayer Co., 392 U.S. 409, 439, 88 S. Ct. 2186, 20 L Ed. 2d 1189 (1968)).

Instruction 47A-9 Elements of the Offense

In order to prove the defendant guilty of holding another person in forced labor, the government
must prove each of the following elements beyond a reasonable doubt:
First, that the defendant obtained (or provided) the labor or services of another;
Second, (choose applicable options) (1) (for conduct after Dec. 23, 2008: that the defendant used
force or physical restraint, or a threat of force or physical restraint, against that person or
another); and/or (2) that the defendant used a threat of serious harm to (or seriously harmed) that
person or another; and/or (3) that the defendant abused or threatened to abuse law or the legal
process; and/or (4) that the defendant used a scheme, plan, or pattern intended to cause the
person to believe that, if the person did not perform such labor or services, that person or
another person would suffer serious harm or physical restraint; and
Third, that the defendant acted knowingly.
If applicable: Fourth, that a victim died as a result of defendant’s actions (or was kidnapped or
was the victim of aggravated sexual abuse).
Authority
Second Circuit: United States v. Sabhnani, 539 F. Supp. 2d 617 (E.D.N.Y. 2008), affd, 599 F.3d 215
(2d Cir. 2010).

485

3

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Instruction 47A-10 First Element—Obtaining Labor or Services of Another 1

The first element of the offense that the government must prove beyond a reasonable doubt is
that the defendant obtained (or provided) the labor or services of [the victim].
To “obtain” means to gain or acquire. “Labor” means the expenditure of physical or mental
effort. “Services” means conduct or performance that assists or benefits someone.
If appropriate: The government does not have to prove that [the victim] performed work for the
defendant in the economic sense, although that would satisfy this element. All the government
must prove is that [the victim] provided labor or services as I just defined them.

Authority
Second Circuit: United States v. Marcus, 628 F.3d 36 (2d Cir. 2010).
Fourth Circuit: United States v. Udeozor, 515 F.3d 260 (4th Cir. 2008).
Tenth Circuit: United States v. Kaufman, 546 F.3d 1242 (10th Cir. 2008).
Comment

The terms “obtain,” “labor,” and “services” are sufficiently common that they will not require further
definition in the typical cases where the victim is held in compulsory service as a farm worker or
domestic. Additional language is included in cases that depart from the ordinary such as United States v.
Kaufman, 2 where the defendant, a doctor of social work who operated an unlicensed group home for
the mentally ill, required his patients to engage in compelled sexual activity, including masturbation,
genital shaving, and frequent nudity, much of which was videotaped’ The court of appeals made clear
that the phrase “labor or services” is not limited to work in the economic sense, and included the
compelled activity that the evidence revealed. 3
Footnotes
2
United States v. Kaufman, 546 F.3d 1242 (10th Cir. 2008).
3
Id. at 1260-61.

Instruction 47A-11 Second Element—Force or Restraint

485

4

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

For conduct after Dec. 23, 2008: The second element of the offense that the government must
prove beyond a reasonable doubt is that the defendant used force or physical restraint, or a
threat of force or physical restraint against that person or another.
If applicable: A threat is a serious statement expressing an intention to inflict harm, at once or in
the future, as distinguished from idle or careless talk, exaggeration, or something said in a
joking manner. For a statement to be a threat, the statement must have been made under such
circumstances that a reasonable person who heard or read the statement would understand it as
a serious expression of an intent to cause harm. In addition, the defendant must have made the
statement intending it to be a threat, or with the knowledge that the statement would be viewed
as a threat.
Comment
The critical element of a charge under section 1589 is that the defendant used some form of coercion to
obtain the services of the victim. As amended in late 2008, the statute defines four types of coercion: (1)
force, physical restraint, or the threat of either; (2) serious harm or the threat thereof; (3) the abuse or
threatened abuse of the legal process; and (4) the use of a scheme or plan, short of a threat, to induce
the victim to believe that serious harm could occur. This instruction covers the first of these; the others
are discussed in Instructions 47A-12 through 47A-14, below, respectively. The statute, as amended,
specifically states that one or any combination of these four forms of coercion is sufficient, so the court
should join the relevant instructions to form one element.
Prior to the 2008 amendments to section 1589, the use of force or physical restraint was subsumed in the
category of “serious harm." The amendment separated out force and physical restraint as a separate
category and then defined “serious harm” to include various forms of physical and nonphysical harm. 1
As discussed in the instructions concerning section 1584, coercion through the use of force or physical
restraint is part of the classic definition of “involuntary servitude” in the Thirteenth Amendment and the
statutes. 2 In United States v. Kozminski, 3 the Supreme Court limited the definition of involuntary
servitude to the use of physical or legal coercion, excluding purely psychological coercion. 4 Thus,
although section 1584 is arguably not a lesser included offense of section 1589 because the former
requires proof of willfulness, which the latter does not, all of the conduct that is covered by this category
is also covered under section 1584(a). As most of the recent cases involve more than one form of
coercion, it is likely that practice under section 1584(a) will diminish (unless there is evidence of
peonage, as well) and that section 1589 will become the predominant avenue for prosecuting cases
involving compelled labor.
In pre-amendment cases involving threats of serious harm, there is authority that a standard definition of
“threat” should apply, 5 so the instruction incorporates the definition from the offense of threatening the
President. Note that there was something of a division of authority in the courts, with most of the courts
of appeals holding that the test for determining whether a statement is a “true threat” is an objective one,
based on whether a reasonable person who heard or read the statement would perceive it as a threat, or
whether a reasonable person making the statement would foresee that the recipient would regard it as a
485

5

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

threat. 6 The Ninth 7 and Tenth Circuits took the position that the defendant must have made the
statement intending it to be a threat, or with the knowledge that the statement would be viewed as a
threat. 8 In Bonis v. United States, 9 the Supreme Court ended this division, rejecting the standard,
under which a conviction could be based solely on how a communication would be understood by a
reasonable person. For a more in-depth discussion of threats, see Instruction 31-4, above.
Footnotes

1
See 18 U.S.C. S 1589fcW2l
2
See Instruction 47A-3, above.
3
487 U.S. 931, 108 S. Ct. 2751, 101 L. Ed. 2d 788 (1988).
4
Id. at 951-53.
5
United States v. Calimlim, 538 F.3d 706, 713 (7th Cir. 2008).
6
See, e.g., United States v. Elonis, 730 F.3d 321, 332 (3d Cir. 2013), rev’d, 575 U.S. 723, 135
S.Ct. 2001, 192 L. Ed. 2d 1 (2015); United States v. Jeffries, 692 F.3d 473, 478 (6th Cir. 2012),
cert, denied, 571 U.S. 817, 134 S. Ct. 59, 187 L. Ed. 2d 25 (2013); United States v. White; 670
F.3d 498, 507-08 (4th Cir. 2012); United States v. Mabie, 663 F.3d 322, 330 (8th Cir. 2011);
United States v. Walker, 665 F.3d 212, 226 (1st Cir. 2011); United States v. Dixon, 449 F.3d
194, 200 (1st Cir. 2006); United States v. Zavrel, 384 F.3d 130, 136 (3d Cir. 2004); United States
v. Alaboud, 347 F.3d 1293, 1296-97 (11th Cir. 2003); United States v. Morales, 272 F.3d 284,
287 (5th Cir. 2001); United States v. Sovie, 122 F.3d 122, 125 (2d Cir. 1997).
7
United States v. Bagdasarian, 652 F.3d 1113 (9th Cir. 2011).
8
United States v. Heineman, 767 F.3d 970 (10th Cir. 2014); see also United States v. Teague,
443 F.3d 1310, 1318-19 (10th Cir. 2006) (given split in authority, use of this instruction cannot
be plain error).
9
575 U.S. 723, 135 S.Ct. 2001, 192 L. Ed. 2d 1 (2015).

Instruction 47A-12 Second Element—Threat of Serious Harm 1

The second element of the offense that the government must prove beyond a reasonable doubt
is that the defendant used threats of serious harm to (or seriously harmed) that person or
another.
A threat is a serious statement expressing an intention to inflict harm, at once or in the future, as
distinguished from idle or careless talk, exaggeration, or something said in a joking manner. For
a statement to be a threat, the statement must have been made under such circumstances that a

485

6

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

reasonable person who heard or read the statement would understand it as a serious expression
of an intent to cause harm. In addition, the defendant must have made the statement intending it
to be a threat, or with the knowledge that the statement would be viewed as a threat.
The term “serious harm” includes both physical and non-physical types of harm including
psychological, financial, or reputational harm. A threat of serious harm includes any threat that is
sufficient under all of the surrounding circumstances to compel a reasonable person of the same
background and in the same circumstances to perform or to continue performing labor or
services in order to avoid incurring that harm.
(If appropriate: Some warnings by an employer to an employee can be legitimate. Warnings of
legitimate but adverse consequences of an employee’s actions, standing alone, are not sufficient
to violate the forced labor statute. It is for you to determine whether the statements made by
defendant to [the victim] were legitimate warnings, or threats as I just defined that term to you.)
In determining whether the defendant made a threat of serious harm that could reasonably be
believed by [the victim], you should consider [the victim’s] particular station in life, physical and
mental condition, age, education, training, experience, and intelligence. A threat of serious harm
must be sufficient in kind or degree to completely overcome the will of an ordinary person
having the same general station in life as that of [the victim], causing a reasonable belief that
there was no reasonable choice except to provide labor and services to the defendant.

Authority
First Circuit: United States v. Bradley, 390 F.3d 145 (1st Cir. 2004), vacated on sentencing grounds,
545 U.S. 1101 (2005).
Ninth Circuit: United States v. Dann, 652 F.3d 1160 (9th Cir. 2011).
Comment

The critical element of a charge under section 1589 is that the defendant used some form of
coercion to obtain the services of the victim. As amended in late 2008, the statute defines four
types of coercion: (1) force, physical restraint, or the threat of either; (2) serious harm or the
threat thereof; (3) the abuse or threatened abuse of the legal process; and (4) the use of a
scheme or plan, short of a threat, to induce the victim to believe that serious harm could occur.
This instruction covers the second of these; the others are discussed in Instructions 47A-11,
above, and 47A-13 and 47A-14, below, respectively. The statute, as amended, specifically states
that one or any combination of these four forms of coercion is sufficient, so the court should join
the relevant instructions to form one element.

Prior to the 2008 amendments to section 1589, there was some overlap between this category of

485

7

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

coercion and "involuntary servitude” as defined by the Supreme Court in United States v.
Kozminski 2 with respect to the use of force and physical restraint. The amendment separated
out that physical coercion into new subsection (a)(1) leaving the nonphysical coercion that does
not fall within Kozminsky’s definition of involuntary servitude in subsection (a)(2) covered in this
instruction. The amendment also provided a new definition for “serious harm” as follows:

The term “serious harm” means any harm, whether physical or nonphysical, including
psychological, financial, or reputational harm, that is sufficiently serious, under all the surrounding
circumstances, to compel a reasonable person of the same background and in the same
circumstances to perform or to continue performing labor or services in order to avoid incurring
that harm. 3

As discussed below, this definition basically codifies existing caselaw, so the Instruction would be
appropriate in cases involving both pre- and post-amendment conduct. 4

The first part of this element is that the defendant threatened the victim. There is authority that a
standard definition of “threat” should apply, 5 so the instruction incorporates the definition from
the offense of threatening the President. 6 For a discussion of threats, see Instruction 31-4,
above.

Prior to the 2008 amendment, the term “serious harm” was not defined. The legislative history
provided little guidance stating only that “[t]he term 'serious harm’ as used in this Act refers to a
broad array of harms, including both physical and nonphysical.” 7 The recommended charge
adopts the language of the instruction in United States v. Bradley 8 by equating the seriousness
of the harm with its sufficiency to achieve the desired result: obtaining the compelled service of
the victim. 9 The 2008 amendment incorporates the same standard in virtually the same
language used by the court in Bradley. The legislative history to the amendment suggests that the
purpose of the new definition is to “more fully capture the imbalance of power between trafficker
and victim.” 10

In several pre-amendment cases, the defendant has argued that the “threats” were actually
legitimate warnings of the adverse consequences of an employee’s failure to follow the directions
of an employer. There is a qualitative difference, however, between a statement that an employee
must conform to the employer's wishes or be fired, and a statement that the failure to follow
directions will result in the employee’s arrest and deportation in that in the former, the employee
always has the option to leave this employer and find other work, while the latter threat is
intended to cut off the employee’s options. The cases have suggested that the charge on this
element should include some reference to this matter, 11 so such language has been included in
an optional paragraph, although it leaves the issue mostly to the argument of counsel.

The original legislative history states that whether the threat is of serious harm should be
informed by “the individual circumstances of victims that are relevant in determining whether a

485

8

© 2021 Matthew Bender & Company, Inc., a member Of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

particular type or certain degree of harm or coercion is sufficient to maintain or obtain a victim’s
labor or services, including the age and background of the victims.” 12 The recommended
instruction adopts language from the charge in Bradley, 13 which is similar to language used in
the involuntary servitude instruction. 14

Footnotes
2
487 U.S. 931, 108 S. Ct. 2751, 101 L. Ed. 2d 788 (1988).
3

18 U.S.C. $ 1589fcM2T
4
The recommended instruction does include the phrase “psychological, financial, or reputational
harm,” which was added by the 2008 amendment, but it is clear that these would qualify as
serious nonphysical harm under the pre-amendment version. In the typical case of an
undocumented domestic worker, threats of financial harm (for example, “your family depends on
the money we send them, so if you leave us, they will be destitute”) and reputational harm (“if
you are deported, you’ll return home in shame”) are forms of psychological coercion intended to
convince the victim that she has no choice but to continue to work for the employer. For
example, in United States v. Dann, 652 F.3d 1160 (9th Cir. 2011), the court separately analyzed
each type of harm in a case involving a nanny brought to the United States. The court found a
threat of financial harm in the defendant’s statement that if the nanny left, the nanny would owe
the defendant substantial sums even though the nanny had never been paid; a threat of
reputational harm in the defendant’s statements that if the nanny returned home, the defendant
would let it be known that she was terminated for being a thief; and psychological harm in the
defendant’s threat that if the nanny left, the defendant’s children would be placed in foster care.
Id. at 1172-73.
5
United States v. Calimlim, 538 F.3d 706, 713 (7th Cir. 2008).
6
See Instruction 31-4, above.
7
H. Rep. No. 106-939, at 101 (Conf. Rep.), reprinted at 2000 U.S. Code Cong. & Admin. News
1380, 1393.
8
390 F.3d 145 (1st Cir. 2004), vacated on sentencing grounds, 545 U.S. 1101 (2005).

9
See id. at 150; accord United States v. Dann, 652 F.3d 1160, 1169-70 (9th Cir. 2011) (the threat
must be sufficient to “compel someone in [the victim’s] circumstances to continue working to
avoid that harm”).

10
154 Cong. Rec. H10904 (Dec. 12, 2008) (explanatory statement of Reps. Berman and Conyers).

11
See United States v. Calimlim, 538 F.3d 706, 712 (7th Cir. 2008); United States v. Bradley, 390
F.3d 145, 151 (1st Cir. 2004), vacated on sentencing grounds, 545 U.S. 1101 (2005).

12
H. Rep. No. 106-939, at 101 (2000) (Conf. Rep.), reprinted at 2000 U.S. Code Cong. & Admin.
News 1380, 1393.

13

485

9

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

390 F.3d at 150-51.
14
See Instruction 47A-3, above.

Instruction 47A-13 Second Element—Abuse of Legal Process

The second element of the offense that the government must prove beyond a reasonable doubt
is that the defendant abused or threatened to abuse law or the legal process.
It is an abuse of the legal process to use threats of legal action, whether administrative, civil, or
criminal, in any manner or for any purpose for which the law was not designed in order to coerce
someone into working against that person’s will.
(If appropriate: However, not all warnings by an employer to an employee are an abuse of the
legal process. Warnings of legitimate but adverse consequences of an employee’s actions,
standing alone, are not sufficient to violate the forced labor statute. It is for you to determine
whether the statements made by defendant to [the victim] were legitimate warnings, or threats to
abuse the legal process.)

Authority
Seventh Circuit: United States v. Calimlim, 538 F.3d 706 (7th Cir. 2008).
Comment

The critical element of a charge under section 1589 is that the defendant used some form of
coercion to obtain the services of the victim. As amended in late 2008, the statute defines four
types of coercion: (1) force, physical restraint, or the threat of either; (2) serious harm or the
threat thereof; (3) the abuse or threatened abuse of the legal process; and (4) the use of a
scheme or plan, short of a threat, to induce the victim to believe that serious harm could occur.
This instruction covers the third of these; the other's are discussed in Instructions 47A-11 and
47A-12, above, and 47A-14, below, respectively. The statute, as amended, specifically states that
one or any combination of these four forms of coercion is sufficient, so the court should join the
relevant instructions to form one element.

Legal coercion was an incident of slavery, so it was included in the meaning of the term
“involuntary servitude” under the Thirteenth Amendment and in section 1584 as defined by the
Supreme Court in United States v. Kozminski. 1 The phrase “abuse or threatened abuse of law
or the legal process” was included in the original version of section 1589, but was not defined.
The 2008 amendment provides a new definition for the phrase as follows:
485

10

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

The term “abuse or threatened abuse of law or legal process” means the use or threatened use of
a law or legal process, whether administrative, civil, or criminal, in any manner or for any purpose
for which the law was not designed, in order to exert pressure on another person to cause that
person to take some action or refrain from taking some action. 2

As discussed below, this definition basically codifies existing caselaw, so the Instruction would be
appropriate in cases involving both pre-and post-amendment conduct.

To satisfy this element, the government must prove some sort of coercion involving the use or
threat of the legal process. Thus, in a recent case, the district court dismissed a section 1589
count because there was ho coercion involved where a county sheriff gave an inmate an
opportunity to work on a private farm in violation of state law. As the court pointed out, the alleged
victim was not required to work on the farm, and always had the choice of refusing, and so was
not coerced into working on the farm. 3

The typical factual situation that arises under this element is when a domestic servant is brought
to the United States under some false pretense, and then forced to work under harsh
circumstances enforced by frequent threats that the employer will have the servant arrested and
deported. As the Seventh Circuit explained in United States v. Calimlim, 4 this is an empty threat
because it conveniently omits any mention of the employer's vulnerability to criminal prosecution
for employing an undocumented worker under 8 U.S.C. § 1324a, harboring under 8 U.S.C. §
1324, and other provisions of the immigration laws. 5 Thus, even though the threat of arrest and
deportation is technically true, it is an abuse of legal process because the purpose of the
immigration laws is not to enable employers to retain “secret employees” by the threat of
deportation, so using the threat in this manner is an abuse “directed to an end different from [that]
envisioned by the law.” 6 Language embodying this conclusion is adopted in the 2008 definition
quoted above.
Footnotes
1
487 U.S. 931, 108 S. Ct. 2751, 101 L. Ed. 2d 788 (1988).
2
18 U.S.C. S1589(cim
3
United States v. Peterson, 2008 U.S. Dist. LEXIS 78780 (M.D. Ga. Aug. 22, 2008).
4
538 F.3d 706 (7th Cir. 2008).
5
Id. at 711; see also United States v. Garcia, 2003 U.S. Dist. LEXIS 22088 (W.D.N.Y Dec 2
2003).
6
538 F.3d at 713.

485

11

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Instruction 47A-14 Second Element—Scheme or Plan

The second element of the offense that the government must prove beyond a reasonable doubt
is that the defendant used a scheme, plan, or pattern intended to cause the person to believe
that, if the person did not perform such labor or services, that person or another person would
suffer serious harm or physical restraint.
To satisfy this element, the government must prove that the defendant engaged in a course of
behavior intended to cause [the victim] to believe that if he or she did not provide labor or
services to the defendant, [the victim], or (e.g., her family) would suffer serious harm.

Authority
Seventh Circuit: United States v. Calimlim, 538 F.3d 706 (7th Cir. 2008).
Comment

The critical element of a charge under section 1589 is that the defendant used some form of coercion to
obtain the services of the victim. As amended in late 2008, the statute defines four types of coercion: (1)
force, physical restraint, or the threat of either; (2) serious harm or the threat thereof; (3) the abuse or
threatened abuse of the legal process; and (4) the use of a scheme or plan, short of a threat, to induce
the victim to believe that serious harm could occur. This instruction covers the last of these; the others
are discussed in Instructions 47A-11 through 47A-13, above, respectively. The statute, as amended,
specifically states that one or any combination of these four forms of coercion is sufficient, so the court
should join the relevant instructions to form one element.

Unlike the forms of coercion involving nonphysical harm and legal coercion, the 2008 amendment did
not provide a separate definition for the "scheme, plan or pattern” provision.

This element expands well beyond “involuntary servitude” as defined by the Supreme Court in United
States v. Kozminski. 1 Thus, while “involuntary servitude” requires the uise or threat of physical or legal
coercion, it excludes purely psychological coercion, which this element allows. As stated in the legislative
history to the original provision, section 1589 “is intended to address the increasingly subtle methods of
traffickers who place their victims in modern-day slavery [including] threatening to harm third persons,
restrain their victims without physical violence or injury, or threaten dire consequences by means other
than overt violence.” 2 The explanatory statement by the sponsors of the 2008 legislation states that “[a]
scheme, plan, or pattern intended to inculcate a belief of serious harm may refer to nonviolent and
psychological coercion, including but not limited to isolation, denial of sleep and punishments, or preying

485

12

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this.product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement,

on mental illness, infirmity, drug use or addictions (whether pre-existing or developed by the trafficker).”
3

A good example of a scheme that satisfied this element is in United States v. Calimlim, 4 where the
victim came to the United States at the age of nineteen as a nanny and housekeeper (lying to
immigration officials to do so), and remained in the service of the defendants for nineteen years, working
sixteen hours a day, seven days a week. She was told that any purchases she made were charged
against her wages, which she never received (except for a small amount sent each year to her family
back in the Philippines), kept mostly isolated from the outside world, and regularly threatened with
deportation. The court of appeals highlighted how the defendants had engaged in a course of conduct
that was a scheme under this element because it was all intended to manipulate the victim into believing
that she had no choice except to continue to work for the defendants. In addition to the evidence noted
above, this included constant reminders to the victim that her family would be impoverished if not for the
money sent to them by the defendants (which was considerably less than the victim was led to believe),
keeping the victim’s passport, and failing to tell her that there was a way to regularize her presence in
this country. 5

Footnotes
1
487 U.S. 931, 108 S. Ct. 2751, 101 L. Ed. 2d 788 (1988).
2
H. Rep. No. 106-939, at 101 (Conf. Rep.), reprinted at 2000 U.S. Code Cong. & Admin. News
1380, 1392-93.
3
154 Cong. Rec. H10904 (Dec. 12, 2008) (explanatory statement of Reps. Berman and Conyers).
4
538 F.3d 706 (7th Cir. 2008).
5
Id. at 713.

Instruction 47A-15 Third Element—Defendant Acted Knowingly

The third element that the government must prove beyond a reasonable doubt is that the
defendant acted knowingly.
An act is done knowingly when it is done purposely and intentionally, as opposed to mistakenly
or inadvertently.
To satisfy this element, the government must prove that the defendant acted knowingly by e.g.,
threatening serious harm to [the victim] in order to obtain [the victim’s] labor or services.
Comment

485

13

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

There has been little or no discussion of this element in the cases, so the definition of “knowingly” used
throughout this Treatise is adopted here. 1 Note that the scienter element of section 1584(a), the
involuntary servitude statute, requires that the defendant act knowingly and willfully, 2 while section
1589 requires only that the defendant act knowingly.
Footnotes
1
See Instruction 3A-1, above.

2
See Instruction 47A-5, above.

Instruction 47A-16 Fourth Element—Death, Kidnapping, or Sexual Abuse

If applicable: The fourth element that the government must prove beyond a reasonable doubt is
that a victim died as a result of the defendant’s actions (or was kidnapped or was the victim of
aggravated sexual abuse).
If death of victim is alleged: In order to establish that the defendant’s conduct resulted in the
death of [the victim], the government must prove beyond a reasonable doubt that but for the
defendant’s actions, [the victim] would not have died. The government is not required to prove
that the defendant intended to cause the death of [the victim].
If kidnapping or attempted kidnapping is alleged: In order to satisfy this element, the government
must prove that the defendant kidnapped (or attempted to kidnap) [name of victim]. For the
purpose of this element, kidnapping means to abduct or confine someone without his or her
consent.
If aggravated sexual abuse is alleged: In order to satisfy this element, the government must prove
that the defendant committed (or attempted to commit) aggravated sexual abuse of [name of
victim]. For the purpose of this element, aggravated sexual abuse means to engage knowingly in
a sexual act with another person: (choose appropriate alternative) by using force against that
person or by threatening or placing that person in fear that the person or another would be
subjected to death, serious bodily injury, or kidnapping or by rendering that person unconscious
or by administering to that person by force or threat of force or without that person’s knowledge
a drug or intoxicant that substantially impairs the ability of that person to control his or her
conduct or when the person is less than twelve years of age. The term “sexual act” means (1)
penetration, however slight, of the vulva or anus by the penis; (2) contact between the mouth and
the penis, the mouth and the vulva, or the mouth and the anus;,(3) penetration, however slight, of
the anal or genital opening of another by a hand, a finger, or by any other object, with an intent
to abuse, humiliate, harass, degrade, or arouse or gratify the sexual desire of any person; or (4)
the intentional touching, not through the clothing, of the genitalia of another person who has not
attained the age of 16 years with an intent to abuse, humiliate, harass, degrade, or arouse or
gratify the sexual desire of any person.
485

14

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product Is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Authority
United States Supreme Court: Burrage v. United States, 571 U.S. 204, 134 S. Ct. 881, 187 L. Ed. 2d

715 (2014).
Comment

This instruction has been revised in light of the Supreme Court’s decision in Burrage v. United States. 1
As no court has yet had the opportunity to discuss the effect of Burrage on this element in the context of
section 1589, the charge should be treated with caution.

The baseline sentence for a violation of section 1589 is up to 20 years imprisonment. 2 This sentence
may be enhanced up to life imprisonment if the victim died, or was kidnapped or was the subject of
aggravated sexual abuse. 3 Under the Supreme Court’s decision in Apprendi v. New Jersey, 4 holding
that it is unconstitutional to remove from the jury the assessment of facts, other than a prior conviction,
which might take a sentence beyond the unenhanced statutory maximum, 5 it is clear that this
enhancement “must be submitted to the jury and found beyond a reasonable doubt.” 6

In Burrage, which involved a similar enhancement in 21 U.S.C. § 841 when a drug user died as a result
of drugs distributed by the defendant, the Court held that the phrase “if death or serious bodily injury
results” requires “but for” causation. 7 The Court explained that absent some indication in the statute
that the term “results” is intended to have some lesser meaning, it should be defined as imposing “a
requirement of actual causality.” 8 Quoting from a recent decision concerning retaliation under Title VII
of the Civil Rights Act of 1964, the court defined “actual causality” as requiring proof “that the harm
would not have occurred in the absence of—that is, but for—the defendant’s conduct.” 9 The court also
made clear that this is a rule of general application, stating that “it is one of the traditional background
principles ‘against which Congress legislate^],’... that a phrase such as ‘results from’ imposes a
requirement of but-for causation.” 10 Accordingly, the recommended charge has been revised to make it
absolutely clear that “but for” causation is required.

The only court to consider the enhanced penalty for kidnapping the victim, the Fifth Circuit in United
States v. Guidry, 11 held that the government is not required to prove all of the elements of a violation
of section 1201, but that instead, a generic definition of the term should apply. 12 Specifically, the court
held that the government is not required to prove that the defendant transported thevietim across a state
line during the commission of the offense. 13

The term “aggravated sexual abuse” is not defined in the TVPA, and does not have a generally accepted
generic definition as does kidnapping. It is, however, the title of the principal federal rape statute, 18
U.S.C. § 2241, and the only court to address the issue in the context of similar enhancement provisions
in the involuntary servitude statutes, 18 U.S.C. §§ 1584 and 1589, 14 held that the enhancement should
incorporate the definition of aggravated sexual abuse from that statute. 15 Presumably, the holding in

485

15

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Guidry that proof of the jurisdictional act (in section 2241 cases, that the offense occurred in a federal
enclave) is not required. Thus, the recommended instruction adopts the language defining the offense in
section 2241 cases, omitting the jurisdictional element. For a complete discussion of section 2241, see
Chapter 61, below. 16

Footnotes
1
571 U.S. 204, 134 S. Ct. 881, 187 L. Ed. 2d 715 (2014).
2
18 U.S.C. S 1589(d).
3
18 U.S.C. S 1589(d1.
4
530 U.S. 466, 120 S. Ct. 2348, 147 L. Ed. 2d 435 (2000).
5
Apprendi, 530 U.S. at 490.
6
Burrage v. United States, 571 U.S. 204, 134 S. Ct. 881, 187 L. Ed. 2d 715 (2014).
7
571 U.S. at 218-19.
8
571 U.S. at 211.
9
Burrage, 571 U.S. at 211 (quoting University of Texas Southwestern Medical Center v. Nassar,
570 U.S. 338, 346-47, 133 S. Ct. 2517, 2525, 186 L. Ed. 2d 503, 514 (2013)).

10
Burrage, 571 U.S. at 214 (quoting Univ. of Tex. Southwestern Med. Ctr. v. Nassar, 570 U.S. 338,
345-47, 133 S. Ct. 2517, 2525, 186 L. Ed. 2d 503, 513 (2013)).

11
United States v. Guidry, 456 F.3d 493 (5th Cir. 2006).

12
Guidry, 456 F.3d at 509-11.

13
Id. at 510.
14
See Instruction 47A-7, above.

15
United States v. Ramos-Ramos, 2007 U.S. Dist. LEXIS 36452 (W.D. Mich. May 18, 2007).
16
Specifically, Instruction 61-3 (definition of “sexual act”), Instruction 61-4 (scienter), and
Instruction 61-5 (the “force or threat” element).

Footnotes for 47A.02[47A-10]

485

16

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

1 Adapted from the charge of Judge Belot in United States v. Kaufman, 546 F.3d 1242 (10th
Cir. 2008).

Footnotes for 47A.02[47A-12]

1 Adapted from the charge of Judge DiClerico in United States v. Bradley, 390 F.3d 145 (1st
Cir. 2004), vacated on sentencing grounds, 545 U.S. 1101 (2005).

485

17

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

